<html>
<title> - TUMORS AND CELL PHONE USE: WHAT THE SCIENCE SAYS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
            TUMORS AND CELL PHONE USE: WHAT THE SCIENCE SAYS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 25, 2008

                               __________

                           Serial No. 110-169

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov




                   U.S. GOVERNMENT PRINTING OFFICE
50-096 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DIANE E. WATSON, California          DAN BURTON, Indiana
CHRISTOPHER S. MURPHY, Connecticut   CHRISTOPHER SHAYS, Connecticut
DANNY K. DAVIS, Illinois             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
BRIAN HIGGINS, New York              CHRIS CANNON, Utah
BRUCE L. BRALEY, Iowa                BRIAN P. BILBRAY, California
JACKIE SPEIER, California
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 25, 2009...............................     1
Statement of:
    Marks, Ellen, Lafayette, CA; Julius Knapp, Director, Office 
      of Engineering and Technology, Federal Communications 
      Commission; Dr. David O. Carpenter, director, Institute for 
      Health and the Environment, University of Albany; Dr. 
      Ronald B. Herberman, director, University of Pittsburgh 
      Cancer Institute; and Dr. Robert N. Hoover, Director, 
      Epidemiology and Biostatistics Program, National Cancer 
      Institute..................................................    11
        Carpenter, Dr. David O...................................   105
        Herberman, Dr. Ronald B..................................   110
        Hoover, Dr. Robert N.....................................   199
        Knapp, Julius............................................    98
        Marks, Ellen.............................................    11
Letters, statements, etc., submitted for the record by:
    Carpenter, Dr. David O., director, Institute for Health and 
      the Environment, University of Albany, prepared statement 
      of.........................................................   107
    Herberman, Dr. Ronald B., director, University of Pittsburgh 
      Cancer Institute, prepared statement of....................   112
    Hoover, Dr. Robert N., Director, Epidemiology and 
      Biostatistics Program, National Cancer Institute, prepared 
      statement of...............................................   202
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................     9
    Knapp, Julius, Director, Office of Engineering and 
      Technology, Federal Communications Commission, prepared 
      statement of...............................................   100
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Marks, Ellen, Lafayette, CA, prepared statement of...........    15
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    94


            TUMORS AND CELL PHONE USE: WHAT THE SCIENCE SAYS

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2008

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Issa, Watson, Higgins, 
and Burton.
    Staff present: Jaron R. Bourke, staff director; Jean Gosa, 
clerk; Charisma Williams, staff assistant; Vic Edgerton, 
legislative director, Office of Congressman Dennis J. Kucinich; 
Leneal Scott, information systems manager; Charles Phillips, 
minority senior counsel; Jason Scism, minority counsel; and 
William O'Neill, minority senior professional staff member.
    Mr. Kucinich. The committee will come to order.
    Before we begin, I just want to thank all of you for being 
here but share with you that we are at a time in our Nation's 
history where there are events that have developed of great 
import with respect to the economy. I felt it was necessary to 
go forward with this hearing particularly because so many 
people made efforts to be here and because of the importance of 
the subject.
    There will be Members of Congress who will be coming in and 
out during the course of this hearing, I am hopeful. The 
ranking member, Mr. Issa, who is also very involved in some of 
the economic issues that we are talking about, has communicated 
to me that he asked me to start the hearing without him. 
Usually, we start with he and I beginning together, but with 
Mr. Issa's permission I am going to begin so that we can move 
quickly to get the testimony on the record of the people who 
are here today.
    So this is the Committee on Oversight and Government 
Reform, Subcommittee on Domestic Policy. I am Congressman 
Dennis Kucinich, the chairman of the subcommittee.
    Today's hearing will examine what science is saying about 
the potential links between long-term use of cell phones and 
tumors or other health effects.
    Without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements followed 
by opening statements not to exceed 3 minutes by any other 
Member who appears and seeks recognition.
    And, without objection, Members and witnesses may have five 
legislative days to submit a written statement or extraneous 
materials for the record.
    Cell phones have evolved from a clunky novelty to a sleek 
utility. They have become indispensable and, for many, 
inseparable from modern life. They are everywhere in America, 
Europe and some parts of Asia.
    While consumer demand for cell phones has grown and as the 
technology has evolved to give consumers more options and 
faster connectivity, a vigorous debate has been taking place 
among scientists about whether long-term use of cell phones 
causes tumors in the people who use them.
    Recently, the debate caught the public's attention with the 
publication in July of a warning from a preeminent oncologist 
about the human health effects of cell phone use. We are 
fortunate to have the author of that memorandum as well as a 
distinguished group of individuals as witnesses before this 
committee today.
    I regret that the CTIA, the association of the wireless 
telecommunications industry, declined our invitation to 
testify. By their refusal, unfortunately, they deny this 
Congress and the public the benefit of their testimony and the 
opportunity to pose questions and to hear answers. I hope that 
the wireless industry will reconsider their decision, should 
the subcommittee determine it would be beneficial to hold 
further hearings on this matter.
    However, I am grateful to the minority of the subcommittee 
for identifying another highly qualified expert from the 
National Cancer Institute. I am confident that he will add 
immeasurably to the hearing.
    I am proud to say that this subcommittee's partnership and 
spirit of cooperation with the minority is the rule rather than 
the exception, and I want to thank them, thank Mr. Issa, for 
engaging in this hearing.
    In exploring this topic, it is my belief that the 
complicated scientific questions should be left to scientists. 
I challenge our witnesses today to answer the questions posed 
by members of the subcommittee clearly and to challenge each 
other as well.
    In typical public debates over potential links between an 
environmental exposure and a health problem, convention is that 
the message must be black and white. On one side, the charge is 
made, explicit or implicit, that there is no scientific doubt 
about a certain health effect from the exposure of concern. On 
the other side, the relevant industry defends its product with 
the scientific assertion that there is no evidence that 
exposure to X causes health effect Y.
    Often, the reality and the science lie somewhere in 
between.
    My hope is that we can improve the public's and Congress' 
understanding about the gray area in this scientific debate. 
Today, we will let experts present the evidence, discuss the 
studies and describe the limitations of what is known and what 
can be implied from the data that we have.
    The question before us then is whether the evidence is 
sufficient to merit action by regulators and legislators to 
protect public health.
    What have other national government health authorities done 
to protect their people based on the same scientific data?
    What should Congress or the administration do, if anything, 
here in the United States?
    At this point, I want to recognize and welcome the 
distinguished ranking member of our subcommittee, Congressman 
Darrell Issa of California.
    Mr. Issa and I have worked together as partners in this 
subcommittee. Where we have our differences, we differ in a 
manner that is collegial. But where we agree, we have 
opportunities to really make some profound difference.
    I want to thank Mr. Issa for his presentation and for his 
presence here. Thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T0096.001

[GRAPHIC] [TIFF OMITTED] T0096.002

[GRAPHIC] [TIFF OMITTED] T0096.003

    Mr. Issa. Thank you, Mr. Chairman. As you said quite 
rightly, we come from different parties and we have reached 
different conclusions on where government should go, but when 
it comes to the conclusion that science has to drive the 
decision process, we have no differences.
    This is an important hearing today. It is important for a 
number of reasons.
    First of all, I understand it has been 15 years since the 
last time a hearing like this was held.
    Second, as somebody who spent his career both in the 
military and then more extensively for 20 years in business, 
producing radio frequency products, I am acutely aware that in 
fact there is a link at some point along the spectrum to 
cancer.
    Now I say that not to say that today we will hear any 
conclusive evidence as to cell phones. We don't have that, and 
I think quite frankly we deserve to get it.
    But we do know that, for example, x-rays being used to 
measure shoes extensively decades ago led to a higher incidence 
of cancer, and in fact today, although valuable, we know to 
limit x-rays to that which is essential. All our medical 
personnel here would say the same thing, that we don't 
unreasonably expose ourselves to x-rays even though we avail 
ourselves of the benefits.
    UV rays, there are many people in the stands today who have 
suntans. If they are like me, they are natural. If, in fact, 
they were gleaned from the sun, then you know that you do it at 
a significant peril that has been well documented.
    These rays are no different than any other rays, any other 
bandwidth. There is a potential for damage at some level. In 
many cases, as I say, we have studied it. We know a little bit 
about x-rays. We know about ultraviolet.
    It is very clear that we need to know more about the rest 
of the spectrum, at 40 hertz, 60 hertz, at 400 megahertz, at 
800 megahertz and well into the gigahertz bands.
    The National Cancer Institute and the World Health 
Organization and the American Cancer Society claim that no link 
has been demonstrated to date. There may be no link, but it is 
also very clear that if there is a link at some level in almost 
any radiation, that we do need to know what is safe and unsafe.
    As I said, I spent more than two decades in the business, 
producing radio frequency products. Our company meticulously 
adhered to the FCC standards. Those standards were primarily 
designed to prevent a product from interfering with other 
products within the spectrum. That is a good standard and 
appropriate.
    We need to find similar good standards for exposure to any 
bandwidth of any device.
    I say this not to say for a moment that I know that there 
is a link specifically anywhere close to the amount of 
radiation that is going out today, but I would say that the 
wireless industry has played no small role in the advancement 
and benefit to the American people. In the last 30 years, the 
wireless industry has changed our lives for the better in so 
many ways.
    Today, with great regret, we will hear from Mrs. Marks 
about the fact that she deals with an impossible situation of 
cancer that may or may not have been caused by the extensive 
use of a product by--I am sorry--your son, I believe. Your 
husband, I apologize. And we will hear that.
    The fact is I don't know. I do know that you are dealing 
with a difficult health problem and certainly one that all of 
us have sympathy for today.
    We owe it today to hear what we can hear and learn what we 
can learn.
    Mr. Chairman, I pledge to you that on a bipartisan basis in 
the next Congress, we will continue the work that we have been 
doing and take it to the next level of finding out what 
studies, what additional research we can co-author in order to 
find out what we cannot necessarily answer here today.
    In closing, Mr. Chairman, I once lived under power lines, 
20,000 volt power lines. I enjoyed the extra back yard. I felt 
no particular fear that the high voltage lines were going to 
hurt me. Today, I still don't.
    But many people, when I went to sell that house, enjoyed 
the extra back yard and were willing to pay for it. Many others 
looked and said: How could you live underneath these? Don't you 
know it causes cancer?
    The American people deserve their government to answer the 
questions about radiation at all levels. I believe we have done 
it well in some areas. I think the testimony here today will 
show we have done it poorly in others.
    So, Mr. Chairman, I appreciate your indulgence, your 
friendship and certainly the 2-years we have spent working on 
this committee together and yield back.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T0096.004
    
    Mr. Kucinich. I thank the gentleman from California.
    I want to now introduce our panel. First, to my left, Ellen 
Marks. Ellen Marks is a realtor and a small business owner. She 
is the wife of Alan Marks who was diagnosed in May 2008, with a 
malignant brain tumor in his right frontal lobe.
    Mr. Marks could not, himself, be present today to testify 
about his personal experience with cell phones and cancer. Mrs. 
Marks will testify on his behalf.
    Julius Knapp: Julius Knapp is Chief of the Federal 
Communications Commission's Office of Engineering and 
Technology. The Office of Engineering and Technology is the 
Commission's primary resource for engineering expertise and 
provides technical support to the chairman, commissioners and 
Federal Communication Commission bureaus and officers.
    Mr. Knapp has responsibility within the Office of 
Engineering and Technology for spectrum allocations and 
technical rules for radio frequency devices. Previously, Mr. 
Knapp served as the Chief of the Policy and Rules Division 
where he was responsible for FCC frequency allocation 
proceedings and for proceedings amending the FCC rules for 
radio frequency devices.
    Mr. Knapp was Chief of the Federal Communications 
Commission Laboratory from 1994 to 1997 where he was 
responsible for the Federal Communication Commission's 
equipment authorization program.
    He served as Chief of Policy and Rules Division from 1997 
to 2001 where he was responsible for developing the Federal 
Communication Commission's policies and rules for mutual 
recognition agreements and telecommunications certification 
bodies.
    Next, Dr. David O. Carpenter: Dr. Carpenter is the director 
of the Institute for Health and Environment at the University 
of Albany as well as a professor in the Department of 
Environmental Health Sciences.
    A public health physician, Dr. Carpenter previously served 
as the director of the Wadsworth Center for Laboratories and 
Research of the New York State Department of Health and later 
as dean of the School of Public Health at the University of 
Albany.
    He has over 300 peer-reviewed publications in neuroscience, 
toxicology and environmental health. He has served as the co-
editor of the BioInitiative Report, a multi-author report on 
animal and human effects of exposure to power line frequency 
and radio frequency, EMFs, and Dr. Carpenter earned his M.S. at 
Harvard Medical School.
    Next, Dr. Ronald Herberman: Dr. Herberman is the founding 
director of the University of Pittsburgh Cancer Institute, a 
National Cancer Institute-designed comprehensive cancer center 
specializing in innovative approaches to cancer diagnosis and 
treatment.
    Along with directing UPCI, he was director of the 
University of Pittsburgh Medical Center Cancer Centers. He also 
serves as chief for the Division of Hematology/Oncology at the 
University of Pittsburgh Medical Center as well as associate 
vice chancellor for cancer research at the University of 
Pittsburgh.
    Previously, Dr. Herberman was official at the National 
Cancer Institute including Senior Investigator in the 
Immunology Branch, Section Head in the Laboratory of Cell 
Biology and Chief of the new Laboratory of Immunodiagnosis.
    Dr. Herberman received his M.D. from New York University 
School of Medicine. He has served as president of the American 
Association of Cancer Institutes and serves on the editorial 
boards of numerous scientific journals.
    And, finally, Dr. Robert Hoover: Dr. Hoover is Director of 
the Epidemiology and Biostatistics Program of the Division of 
Cancer, Epidemiology and Genetics at the National Cancer 
Institute. Dr. Hoover earned his M.D. from Loyola University in 
Chicago and his M.S. and Sc.D. in epidemiology from Harvard 
School of Public Health.
    Dr. Hoover serves on the editorial boards of three journals 
and serves on many national and international committees 
concerned with various aspects of epidemiology and preventive 
medicine. He has been awarded the Public Health Service 
Commendation Medal in 1976, the Meritorious Service Medal in 
1984 and the Distinguished Service Medal in 1990.
    I want to thank our distinguished panelists for appearing 
before this subcommittee today.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
have each answered in the affirmative.
    I would ask that each of the witnesses now give a brief 
summary of your testimony and to keep that summary under 5 
minutes in duration.
    I want each of you to know that while your testimony is in 
some cases quite extensive, that you don't have to give it all 
at this moment but that your entire testimony will be included 
in the record of this hearing, so that Members will have the 
opportunity to be able to digest it.
    So, with that, what I would like to do is to start with 
Mrs. Marks and again our gratitude for your presence here 
today. You may proceed.

    STATEMENTS OF ELLEN MARKS, LAFAYETTE, CA; JULIUS KNAPP, 
    DIRECTOR, OFFICE OF ENGINEERING AND TECHNOLOGY, FEDERAL 
 COMMUNICATIONS COMMISSION; DR. DAVID O. CARPENTER, DIRECTOR, 
INSTITUTE FOR HEALTH AND THE ENVIRONMENT, UNIVERSITY OF ALBANY; 
  DR. RONALD B. HERBERMAN, DIRECTOR, UNIVERSITY OF PITTSBURGH 
     CANCER INSTITUTE; AND DR. ROBERT N. HOOVER, DIRECTOR, 
    EPIDEMIOLOGY AND BIOSTATISTICS PROGRAM, NATIONAL CANCER 
                           INSTITUTE

                    STATEMENT OF ELLEN MARKS

    Mrs. Marks. Thank you for inviting me to testify at this 
critical hearing.
    My name is Ellen Marks, and I live in Lafayette, CA. I am 
here today because my beloved husband and friend of more than 
four decades cannot be. My husband, Alan, has a malignant brain 
tumor and, sadly, we suspect that it is related to his long-
term cell phone exposure.
    As difficult as this is for my family, I am compelled to 
share our very personal story to impress upon you the dire need 
to legislate essential changes concerning cell phone health 
risks.
    Alan and I met when we were 15. He is a self-made man. He 
sold flowers in front of a cemetery at the age of 13 and then 
paid his own way through college and medical school.
    Alan became involved in the real estate industry, and we 
moved from our native Chicago to northern California in 1984. 
We are the proud parents of three adult children, ages 26, 24 
and 22. I wish we could say that we lived happily ever after, 
but that is not the case.
    The night of May 5, 2008, we were excitedly packing to 
leave for our daughter's college graduation the next day. At 2 
a.m., I awoke to Alan's bizarre noises and thrashing. I 
couldn't wake him, and the nightmare remains to this day.
    The worst of his seizures lasted about 25 minutes. When his 
eyes opened, he could not speak or understand anything asked of 
him by the paramedics.
    Witnessing a grand mal seizure is something you can never 
erase from your mind. Arms flail. Saliva drools. Eyes roll back 
in the head, and the face contorts.
    At 4 a.m., in a cold, stark emergency room, I was told that 
my lifelong love has a mass in his right frontal lobe, the part 
of the brain that allows us to differentiate between good and 
bad, right and wrong, control our impulses and relate to those 
you love.
    Imagine the pain of telling our sons, who had raced to the 
hospital in the middle of the night, that their dad's 
increasingly irrational behavior was not a personality problem 
but a lethal brain tumor.
    In the morning, I had no choice but to call our daughter 
and tell her not to pick us up at the Denver airport. Imagine 
her despair as she stood alone, learning that her daddy could 
soon die.
    It is heartbreaking to think that he may not have that 
chance to walk his princess down the aisle or meet his 
grandchildren.
    Six excruciatingly long weeks later, Dr. Berger at UCSF 
performed a 6-hour craniotomy and resection of Alan's 
oligodendral glioma, leaving him able to walk and talk. The 
personality changes remain. Titanium now holds his skull in 
place, and the tumor will grow back.
    It was a slow-growing tumor which caused unexplainable 
chaos in our family for years. When you love someone and he 
becomes another person to act strangely, acting out against 
those you hold dear, you try with all your heart to find ways 
to help.
    Alan also tried with all his heart to continue to be a 
loving father and husband. He willingly sought professional 
help and took antidepressants and bipolar medications for years 
to no avail. He, too, knew something was wrong but just not how 
terribly wrong.
    Now, as a family, we are struggling to understand that the 
now explainable personality changes are actually an involuntary 
consequence of his tumor and surgery, not an easy task.
    Alan has always been a brilliant man with an incredible 
sense of humor and sense of responsibility to his family. He 
clings to that sense of responsibility now and is deeply 
depressed by his limitations.
    To me, he is still the most handsome man in the world, but 
the twinkle in his eye is gone. His cell phone and the 
resulting tumor have robbed us of financial security and the 
very pursuit of happiness. Alan, a husband, a father and a son, 
has been handed a death sentence at the age of 56.
    Alan had his seizure and diagnosis 10 days before Senator 
Kennedy. Ironically, my son, Zach, who is sitting behind me, 
interned for Senator Kennedy just a few years ago. Upon hearing 
a report that the Senator's glioma may also be linked to cell 
phone use, our research began.
    Alan's cell phone was a vital part of his work--always on, 
always ringing, always right next to his head. I often 
threatened to throw it in the garbage and how I wish I had.
    He had a cell phone or the original car phone for over 20 
years, and he averaged over 30 hours monthly. The tumor is on 
the same side of his head to which he held the phone.
    I learned there are significant flaws in many cell phone 
risk studies. I learned that in Scandinavia, where cell phones 
had been used longer than here, a 240 percent increased risk of 
glioma has been proven in those who use their cell phones more 
than 22 hours a month. That is less than 1 hour daily.
    I learned that cell phone use is exceptionally dangerous 
for children, and I also learned that we are nearing an 
epidemic of 20 to 30-year-olds who use only cell phones. If 
this happens, we could lose more young people to this than any 
war in Iran or Afghanistan.
    I am grateful that Dr. Herberman, a distinguished 
scientist, has made such a courageous decision. How can we wait 
if waiting means sick or dead people when we have strong 
evidence or any evidence at all that there is a risk?
    What happened to my husband could happen to you or, worse, 
to your children or grandchildren.
    I am sick and tired of hearing there is not enough 
conclusive evidence. My husband is conclusive evidence. I am 
angry as this horror could have been avoided with a simple 
warning.
    I pray that my husband's legacy will be that we helped 
divulge the truth and that you, the leaders of our great 
Nation, took action. Governments in other countries have taken 
steps to protect their citizens from this travesty. I trust you 
will not fail us.
    I beg of you not to let technological advances, invented to 
enrich our lives, rob us of our lives instead.
    Please demand independent studies instead of self-serving 
studies funded by the cell phone industry. Please demand more 
rigorous safety standards. Please demand that warnings about 
cell phone usage and the radiation they emit be stated on every 
cell phone. By doing so, you will protect our most valued 
resource of all--human life.
    I love my husband with all my heart and hate what has 
happened to him as a result of this cancer.
    Please help save others from facing the deadly diagnosis 
and lifestyle which our family must endure. If not now, when? 
And, if not for me, for the millions of potential victims.
    I thank you very much.
    [The prepared statement of Mrs. Marks follows:]

    [GRAPHIC] [TIFF OMITTED] T0096.005
    
    [GRAPHIC] [TIFF OMITTED] T0096.006
    
    [GRAPHIC] [TIFF OMITTED] T0096.007
    
    [GRAPHIC] [TIFF OMITTED] T0096.008
    
    [GRAPHIC] [TIFF OMITTED] T0096.009
    
    [GRAPHIC] [TIFF OMITTED] T0096.010
    
    [GRAPHIC] [TIFF OMITTED] T0096.011
    
    [GRAPHIC] [TIFF OMITTED] T0096.012
    
    [GRAPHIC] [TIFF OMITTED] T0096.013
    
    [GRAPHIC] [TIFF OMITTED] T0096.014
    
    [GRAPHIC] [TIFF OMITTED] T0096.015
    
    [GRAPHIC] [TIFF OMITTED] T0096.016
    
    [GRAPHIC] [TIFF OMITTED] T0096.017
    
    [GRAPHIC] [TIFF OMITTED] T0096.018
    
    [GRAPHIC] [TIFF OMITTED] T0096.019
    
    [GRAPHIC] [TIFF OMITTED] T0096.020
    
    [GRAPHIC] [TIFF OMITTED] T0096.021
    
    [GRAPHIC] [TIFF OMITTED] T0096.022
    
    [GRAPHIC] [TIFF OMITTED] T0096.023
    
    [GRAPHIC] [TIFF OMITTED] T0096.024
    
    [GRAPHIC] [TIFF OMITTED] T0096.025
    
    [GRAPHIC] [TIFF OMITTED] T0096.026
    
    [GRAPHIC] [TIFF OMITTED] T0096.027
    
    [GRAPHIC] [TIFF OMITTED] T0096.028
    
    [GRAPHIC] [TIFF OMITTED] T0096.029
    
    [GRAPHIC] [TIFF OMITTED] T0096.030
    
    [GRAPHIC] [TIFF OMITTED] T0096.031
    
    [GRAPHIC] [TIFF OMITTED] T0096.032
    
    [GRAPHIC] [TIFF OMITTED] T0096.033
    
    [GRAPHIC] [TIFF OMITTED] T0096.034
    
    [GRAPHIC] [TIFF OMITTED] T0096.035
    
    [GRAPHIC] [TIFF OMITTED] T0096.036
    
    [GRAPHIC] [TIFF OMITTED] T0096.037
    
    [GRAPHIC] [TIFF OMITTED] T0096.038
    
    [GRAPHIC] [TIFF OMITTED] T0096.039
    
    [GRAPHIC] [TIFF OMITTED] T0096.040
    
    [GRAPHIC] [TIFF OMITTED] T0096.041
    
    [GRAPHIC] [TIFF OMITTED] T0096.042
    
    [GRAPHIC] [TIFF OMITTED] T0096.043
    
    [GRAPHIC] [TIFF OMITTED] T0096.044
    
    [GRAPHIC] [TIFF OMITTED] T0096.045
    
    [GRAPHIC] [TIFF OMITTED] T0096.046
    
    [GRAPHIC] [TIFF OMITTED] T0096.047
    
    [GRAPHIC] [TIFF OMITTED] T0096.048
    
    [GRAPHIC] [TIFF OMITTED] T0096.049
    
    [GRAPHIC] [TIFF OMITTED] T0096.050
    
    [GRAPHIC] [TIFF OMITTED] T0096.051
    
    [GRAPHIC] [TIFF OMITTED] T0096.052
    
    [GRAPHIC] [TIFF OMITTED] T0096.053
    
    [GRAPHIC] [TIFF OMITTED] T0096.054
    
    [GRAPHIC] [TIFF OMITTED] T0096.055
    
    [GRAPHIC] [TIFF OMITTED] T0096.056
    
    [GRAPHIC] [TIFF OMITTED] T0096.057
    
    [GRAPHIC] [TIFF OMITTED] T0096.058
    
    [GRAPHIC] [TIFF OMITTED] T0096.059
    
    [GRAPHIC] [TIFF OMITTED] T0096.060
    
    [GRAPHIC] [TIFF OMITTED] T0096.061
    
    [GRAPHIC] [TIFF OMITTED] T0096.062
    
    [GRAPHIC] [TIFF OMITTED] T0096.063
    
    [GRAPHIC] [TIFF OMITTED] T0096.064
    
    [GRAPHIC] [TIFF OMITTED] T0096.065
    
    [GRAPHIC] [TIFF OMITTED] T0096.066
    
    [GRAPHIC] [TIFF OMITTED] T0096.067
    
    [GRAPHIC] [TIFF OMITTED] T0096.068
    
    [GRAPHIC] [TIFF OMITTED] T0096.069
    
    [GRAPHIC] [TIFF OMITTED] T0096.070
    
    [GRAPHIC] [TIFF OMITTED] T0096.071
    
    [GRAPHIC] [TIFF OMITTED] T0096.072
    
    [GRAPHIC] [TIFF OMITTED] T0096.073
    
    [GRAPHIC] [TIFF OMITTED] T0096.074
    
    [GRAPHIC] [TIFF OMITTED] T0096.075
    
    [GRAPHIC] [TIFF OMITTED] T0096.076
    
    [GRAPHIC] [TIFF OMITTED] T0096.077
    
    [GRAPHIC] [TIFF OMITTED] T0096.078
    
    [GRAPHIC] [TIFF OMITTED] T0096.079
    
    [GRAPHIC] [TIFF OMITTED] T0096.080
    
    [GRAPHIC] [TIFF OMITTED] T0096.081
    
    [GRAPHIC] [TIFF OMITTED] T0096.082
    
    Mr. Kucinich. Thank you very much, Mrs. Marks, for your 
testimony.
    Before I go to our next witness, I want to note that we 
have two more Members of Congress who have joined us, 
Congresswoman Diane Watson from California and Congressman 
Higgins from New York. So I want to thank the Members for being 
here, and we certainly look forward to your participation in 
the question and answer period.
    Ms. Watson. May I have just 1 minute?
    Mr. Kucinich. You are certainly entitled to do that. I 
haven't done this before, interrupting the testimony.
    Ms. Watson. I just want to let the witnesses know I have 
experienced, Mrs. Marks, what you have.
    I had a niece that had two brain tumors. She grew up with a 
telephone on this side and one on this side. And so, I just 
want all the witnesses to know that I have gone through that 
experience.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T0096.083
    
    [GRAPHIC] [TIFF OMITTED] T0096.084
    
    [GRAPHIC] [TIFF OMITTED] T0096.085
    
    [GRAPHIC] [TIFF OMITTED] T0096.086
    
    Mrs. Marks. I am sorry.
    Mr. Kucinich. I thank the gentlelady.
    At this point, Mr. Knapp, you may proceed.

                   STATEMENT OF JULIUS KNAPP

    Mr. Knapp. Thank you, Chairman Kucinich and members of the 
committee.
    It is very tough to talk after hearing that story. My heart 
goes out to you and, of course, all the best for you and your 
family.
    Mrs. Marks. Thank you.
    Mr. Knapp. My name is Julius Knapp. I am the Chief of the 
Office of Engineering and Technology at the FCC, and I thank 
you for the opportunity to participate in this hearing.
    As you know, the FCC is responsible for, among others, 
regulating telecommunications services and devices, everything 
from multi-kilowatt broadcast antennas to microwatt medical 
implants.
    Pursuant to the National Environmental Policy Act of 1969 
[NEPA], the Commission has established guidelines for human 
exposure to RF radiation. The FCC guidelines, which were first 
established in 1985, regulate the amount of RF radiation to 
which humans may be exposed by various transmitters regulated 
by the FCC.
    The guidelines and methods for evaluating the environmental 
effects of RF have been revised as scientific knowledge in the 
area has advanced and standards-setting bodies, upon which the 
Commission relies in setting our exposure guidelines, have 
revised their maximum acceptable exposure criteria.
    The current guidelines were finalized in 1997 based on 
recommendations and advice of Federal agencies and groups with 
expertise in health-related areas and in standards setting.
    The guidelines were based primarily on criteria developed 
by the congressionally chartered National Council on Radiation 
Protection and Measurement and the Institute of Electronics and 
Electrical Engineers which is within the broad umbrella of the 
American National Standards Institute.
    Their adoption was supported by the Environmental 
Protection Agency and other health and safety agencies. Four 
years ago, the Court of Appeals for the District of Columbia 
upheld the Commission's continued reliance on its existing 
rules to protect the public from potential health effects from 
RF exposure.
    The standards guidelines specify limits for human exposure 
to RF emissions from handheld RF devices in terms of specific 
absorption rate or SAR. For exposure to the general public, 
exposure of the user of a cell phone or PCS phone, for example, 
the SAR limit is an absorption threshold of 1.6 watts per 
kilogram as measured over 1 gram of tissue.
    To ensure compliance with the RF exposure guidelines, cell 
phones must be certificated before they can be marketed to the 
public. In order to receive certification, each device must be 
tested to demonstrate compliance with the SAR standard. The 
test data and the test methodologies are reviewed before the 
certification is granted, and the test data, including the SAR 
values, are made available to the public and are on our Web 
site.
    In addition to establishing and enforcing the exposure 
limits, the FCC provides information to consumers and to 
industry through various publications and on our Web site. The 
FCC and the Food and Drug Administration have developed a joint 
Web site to provide health-related information for consumers 
who are concerned about cell phones, base station towers and 
other transmitters and wireless products.
    Among other things, the joint Web site includes a link to 
the Commission's data base of approved equipment and 
instructions on how to find the SAR information for individual 
cell phones. It also refers to outside sites that compile 
information on SAR for individual cell phones that may be in a 
more readily accessible format.
    In order to ensure the continued propriety and efficacy of 
our RF emissions limits, the FCC staff continuously monitors 
relevant studies and literature and attends and participates in 
a number of groups and pertinent standards-setting bodies.
    In addition, our staff participate with scientists from the 
Federal health and safety agencies in an informal 
Radiofrequency Interagency Working Group which was chartered in 
1995 to provide a coordinated Federal approach to health 
issues.
    Although the Commission is responsible for setting and 
enforcing limits for RF exposure from devices that we 
authorize, it is important to understand that we rely on the 
guidance from U.S. health, safety and environmental agencies in 
setting those limits. The FCC staff is not sufficiently 
qualified to speak with authority to the science of health 
effects of RF absorption in the body.
    If agencies with expertise on health effects of RF exposure 
were to suggest that our standards should be modified, the 
Commission would initiate a rulemaking to consider changes in 
the standards.
    In closing, the Commission recognizes the public concerns 
about cell phone use. The science concerning health effects of 
RF exposure from cell phones has been the subject of great 
study and debate. We are continuing to monitor the 
developments, and the Commission stands ready to take action if 
it appears appropriate to do so.
    Thank you.
    [The prepared statement of Mr. Knapp follows:]

    [GRAPHIC] [TIFF OMITTED] T0096.087
    
    [GRAPHIC] [TIFF OMITTED] T0096.088
    
    [GRAPHIC] [TIFF OMITTED] T0096.089
    
    [GRAPHIC] [TIFF OMITTED] T0096.090
    
    [GRAPHIC] [TIFF OMITTED] T0096.091
    
    Mr. Kucinich. Thank you, Mr. Knapp.
    Dr. Carpenter, please proceed.

              STATEMENT OF DR. DAVID O. CARPENTER

    Mr. Carpenter. I am very grateful for the opportunity to 
meet before this committee, and I thank the chairman, 
Congressman Kucinich, and the other Members for bringing me 
here.
    Mr. Kucinich. Sir, could you please bring that mic a little 
bit closer?
    Before you begin further, I just want everyone in the 
audience to know that we appreciate your being here, but out of 
respect for the witnesses and this proceeding, if you have a 
cell phone, either turn it off or put it on vibrate, so that 
phones aren't going off in the middle of someone's testimony.
    You may proceed, Doctor.
    Mr. Carpenter. Thank you.
    I did testify before a committee of Congress about 15 years 
ago on the health effects of power line frequency fields. It 
may have been the hearing that you mentioned, although at that 
hearing we were not dealing with radiofrequency radiation.
    As you mentioned in my introduction, I am a public health 
physician, not a practicing medical doctor. And, it is 
important to understand that public health is a profession that 
tries to prevent disease before it occurs, and it is a 
population-based discipline.
    So this issue of what do we do when we have some 
information indicating a hazard, but when that information may 
not be as definitive as we would like, this is a critical 
public health issue.
    Let me just summarize where I am coming from on this issue 
in that I see the evidence that we have at the present very 
strongly suggestive of there being a major risk of brain cancer 
and other cancers as a result of exposure to radiofrequency 
fields. I certainly find the evidence at present to be less 
than 100 percent.
    But the public health implications, under circumstances 
where the expansion of wireless technology, where every child 
is using cell phones all of the time and when exposure are you 
can't go into a McDonald's or a Starbucks without being in a 
wireless environment, the public health implications, if we 
don't take actions and this turns out to be as bad as I suspect 
it is, these implications are enormous.
    As was mentioned, I was one of the co-editors of the 
BioInitiative Report, a report that appeared about a year ago, 
written by an international team of 14 scientists who find that 
the reports from our national bodies, from the FCC, are unduly 
conservative in our opinion and in doing so fail to protect the 
public health.
    Let me summarize what I see as the most important health 
effects. Cell phone use really began in Europe. Cell phones 
were first manufactured in Scandinavia. And, in Scandinavia, 
cell phone use was very common about 1980, long before most 
people in the United States even knew what they were.
    The studies are coming out of Scandinavia showing that if 
you use a cell phone intensely for 10 years or more, you are at 
increased risk of developing a brain tumor, an acoustic neuroma 
which is a benign growth of the auditory nerve and, in a study 
from Israel, cancer of the parotid gland, the salivary gland in 
the cheek.
    This increased risk occurs only on the side of the head 
where the cell phone was used for that period of time.
    There are many studies of cell phone use that have not 
demonstrated any adverse effect. Almost without exception, 
these are studies that were not done for long-term users.
    And, there is a problem with all of these studies in that 
the exposure assessment, that being if you were asked how 
frequently you used a cell phone 10 years ago, you would have 
difficulty answering that question. So the research isn't 
perfect.
    Now there are studies from Korea showing increased risk of 
leukemia if children simply live by an AM television or AM 
radio transmission tower. So that is another form of 
radiofrequency radiation.
    We feel that the studies from Sweden, especially the study 
published in 2004 and then a more recent presentation of Dr. 
Leonard Hardell that occurred at a meeting in London that I 
attended early in September, showing that if a child or a young 
adult begins to use a cell phone early in life, their risk of 
going on to develop brain tumors is much higher than if an 
adult begins to use it.
    In the results presented in London 2 weeks ago, Dr. Hardell 
reported that if a person began to use a cell phone under the 
age of 20, he had a 5.2fold elevated risk of developing a brain 
cancer. In contrast, if one looked at all of the people in his 
study, the risk was 1.4.
    So we call on the government to support research with good 
exposure assessment.
    We call on the FCC to review their standards for exposure. 
Their standards are presently based on the assumption, which we 
feel to be fallacious, that the only adverse health effect of 
radiofrequency fields is tissue heating.
    And, we call on the health agencies, the NIH, the EPA, the 
Centers for Disease Control to issue warnings, especially to 
children who are more vulnerable to any environmental insult, 
certainly to radiofrequency radiation.
    Thank you very much for your attention.
    [The prepared statement of Mr. Carpenter follows:]

    [GRAPHIC] [TIFF OMITTED] T0096.092
    
    [GRAPHIC] [TIFF OMITTED] T0096.093
    
    [GRAPHIC] [TIFF OMITTED] T0096.094
    
    Mr. Kucinich. Thank you very much, Dr. Carpenter.
    Dr. Herberman, please proceed.

              STATEMENT OF DR. RONALD B. HERBERMAN

    Dr. Herberman. I want to thank this committee for inviting 
me to talk with you today about the important concerns that 
have been raised about cell phones and our health.
    As the chairman nicely summarized, I am a physician and 
cancer researcher and the founding director of the University 
of Pittsburgh Cancer Institute [UPCI].
    I am here with you today to discuss my reasons for being 
concerned about the potential for health effects from cell 
phones that led me to develop a simple precautionary message to 
reduce exposure now while we develop new research to better 
measure the possible health impacts of cell phone and cordless 
phone use.
    A little bit about the UPCI: It is right by the National 
Cancer Institute [NCI], among the top 10 cancer research 
centers, based on cancer research funding.
    For two decades before coming to Pittsburgh, I worked for 
the NCI with teams of innovative researchers. I have published 
more than 700 peer-reviewed articles. Although I am a physician 
scientist, I need to point out that I am not, as Dr. Carpenter, 
an expert on cell phones and cancer risk.
    As history tells us, there are examples where delays in 
reducing exposure to cancer-causing substances have led to 
large increases in cancer. Tobacco use is one striking example.
    Mindful of lessons learned, the UPCI Center for 
Environmental Oncology began a process more than a year ago of 
reviewing evidence on the possible association of brain cancer 
with the long-term use of cell phones. During this process, I 
became aware of a growing body of scientific evidence 
indicating that long-term frequent use of cell phones, which 
receive and emit radiofrequency [RF] signals, may be associated 
with an increased risk of brain tumors including malignant 
gliomas, the type of tumor that Senator Kennedy recently 
developed as well as Mr. Marks.
    This particularly concerned me since, in the United States 
today, more than 9 out of every 10 adults use a cell phone, a 
remarkable number that has doubled in just the past 5 years. 
Worldwide, there are 3 billion regular cell phone users 
including a growing number of children.
    Generally speaking, it is important to stress that children 
are not just little adults. They often are much more vulnerable 
to the effects of environmental exposures. For cell phones, 
this matters because the skull of children is much less dense 
than the skull of adults and modeling research has shown that 
cell phone RF signals are observed much deeper into the brains 
of children.
    In contrast to the United States, as Dr. Carpenter has 
pointed out, in the Scandinavian countries, widespread cell 
phone use has been prevalent for more than two decades. Dr. 
Leonard Hardell, a distinguished oncologist, finds that people 
who have used cell phones the most have double the chance of 
developing malignant brain tumors and also tumors on the 
hearing nerve called acoustic neuromas.
    Dr. Hardell has also, as Dr. Carpenter just summarized, 
recently reported that teenagers who use cell phones have five 
times more brain tumors by the age of 29.
    I recognize that many studies do not show any association, 
but most of these negative studies have followed people for a 
relatively short period of time. It seems likely that brain 
cancer can take 10 or more years to develop. In addition, few 
studies have controlled for cordless phone use, and these 
cordless phones also release RF signals.
    In population-based research, clearly methods always 
matter. My concerns about the use, about the risk for 
developing brain tumors from long-term cell phone use and my 
particular concern about risks for children, coupled with the 
knowledge that experts in several other countries had issued 
precautionary advisories, led me to issue an advisory in July 
to our physicians, scientists and staff. The advice was 
straightforward and has been widely shared by colleagues and 
news outlets around the world.
    Within a week of the distribution of the precautionary memo 
to our staff, the Israeli Health Ministry endorsed our 
recommendations. Our warning has also been translated into 
German, Portuguese and Spanish.
    Our advisory recommends that you use cell phones but 
carefully. Don't keep them turned on and on your body all the 
time. Use an earpiece, a headset or a speaker phone mode.
    Based on the current body of evidence as a physician 
scientist who has devoted my life to preventing cancer and 
saving lives, I cannot tell this committee they are definitely 
dangerous, but I certainly cannot tell you that they are safe.
    How are we going to resolve this important matter?
    Should we simply wait and watch or should we take simple 
precautions while we undertake additional, more definitive 
research that will tell the whole story?
    I urge this committee to work collaboratively with the cell 
phone industry so that independent researchers at our 
institution, M.D. Anderson Cancer Institute and the National 
Cancer Institute and National Institute of Environmental Health 
Sciences will be better able to produce the best, most accurate 
study of cell phone use and health effects.
    The future of our children and grandchildren, I believe, 
demands that we work together to understand the potential risks 
from cell phones and, if necessary, to develop effective 
solutions to reduce future health threats.
    And, in closing, I would just say that I find the old 
adage, to be better safe than sorry, to be very apt for this 
situation.
    Thank you.
    [The prepared statement of Dr. Herberman follows:]

    [GRAPHIC] [TIFF OMITTED] T0096.095
    
    [GRAPHIC] [TIFF OMITTED] T0096.096
    
    [GRAPHIC] [TIFF OMITTED] T0096.097
    
    [GRAPHIC] [TIFF OMITTED] T0096.098
    
    [GRAPHIC] [TIFF OMITTED] T0096.099
    
    [GRAPHIC] [TIFF OMITTED] T0096.100
    
    [GRAPHIC] [TIFF OMITTED] T0096.101
    
    [GRAPHIC] [TIFF OMITTED] T0096.102
    
    [GRAPHIC] [TIFF OMITTED] T0096.103
    
    [GRAPHIC] [TIFF OMITTED] T0096.104
    
    [GRAPHIC] [TIFF OMITTED] T0096.105
    
    [GRAPHIC] [TIFF OMITTED] T0096.106
    
    [GRAPHIC] [TIFF OMITTED] T0096.107
    
    [GRAPHIC] [TIFF OMITTED] T0096.108
    
    [GRAPHIC] [TIFF OMITTED] T0096.109
    
    [GRAPHIC] [TIFF OMITTED] T0096.110
    
    [GRAPHIC] [TIFF OMITTED] T0096.111
    
    [GRAPHIC] [TIFF OMITTED] T0096.112
    
    [GRAPHIC] [TIFF OMITTED] T0096.113
    
    [GRAPHIC] [TIFF OMITTED] T0096.114
    
    [GRAPHIC] [TIFF OMITTED] T0096.115
    
    [GRAPHIC] [TIFF OMITTED] T0096.116
    
    [GRAPHIC] [TIFF OMITTED] T0096.117
    
    [GRAPHIC] [TIFF OMITTED] T0096.118
    
    [GRAPHIC] [TIFF OMITTED] T0096.119
    
    [GRAPHIC] [TIFF OMITTED] T0096.120
    
    [GRAPHIC] [TIFF OMITTED] T0096.121
    
    [GRAPHIC] [TIFF OMITTED] T0096.122
    
    [GRAPHIC] [TIFF OMITTED] T0096.123
    
    [GRAPHIC] [TIFF OMITTED] T0096.124
    
    [GRAPHIC] [TIFF OMITTED] T0096.125
    
    [GRAPHIC] [TIFF OMITTED] T0096.126
    
    [GRAPHIC] [TIFF OMITTED] T0096.127
    
    [GRAPHIC] [TIFF OMITTED] T0096.128
    
    [GRAPHIC] [TIFF OMITTED] T0096.129
    
    [GRAPHIC] [TIFF OMITTED] T0096.130
    
    [GRAPHIC] [TIFF OMITTED] T0096.131
    
    [GRAPHIC] [TIFF OMITTED] T0096.132
    
    [GRAPHIC] [TIFF OMITTED] T0096.133
    
    [GRAPHIC] [TIFF OMITTED] T0096.134
    
    [GRAPHIC] [TIFF OMITTED] T0096.135
    
    [GRAPHIC] [TIFF OMITTED] T0096.136
    
    [GRAPHIC] [TIFF OMITTED] T0096.137
    
    [GRAPHIC] [TIFF OMITTED] T0096.138
    
    [GRAPHIC] [TIFF OMITTED] T0096.139
    
    [GRAPHIC] [TIFF OMITTED] T0096.140
    
    [GRAPHIC] [TIFF OMITTED] T0096.141
    
    [GRAPHIC] [TIFF OMITTED] T0096.142
    
    [GRAPHIC] [TIFF OMITTED] T0096.143
    
    [GRAPHIC] [TIFF OMITTED] T0096.144
    
    [GRAPHIC] [TIFF OMITTED] T0096.145
    
    [GRAPHIC] [TIFF OMITTED] T0096.146
    
    [GRAPHIC] [TIFF OMITTED] T0096.147
    
    [GRAPHIC] [TIFF OMITTED] T0096.148
    
    [GRAPHIC] [TIFF OMITTED] T0096.149
    
    [GRAPHIC] [TIFF OMITTED] T0096.150
    
    [GRAPHIC] [TIFF OMITTED] T0096.151
    
    [GRAPHIC] [TIFF OMITTED] T0096.152
    
    [GRAPHIC] [TIFF OMITTED] T0096.153
    
    [GRAPHIC] [TIFF OMITTED] T0096.154
    
    [GRAPHIC] [TIFF OMITTED] T0096.155
    
    [GRAPHIC] [TIFF OMITTED] T0096.156
    
    [GRAPHIC] [TIFF OMITTED] T0096.157
    
    [GRAPHIC] [TIFF OMITTED] T0096.158
    
    [GRAPHIC] [TIFF OMITTED] T0096.159
    
    [GRAPHIC] [TIFF OMITTED] T0096.160
    
    [GRAPHIC] [TIFF OMITTED] T0096.161
    
    [GRAPHIC] [TIFF OMITTED] T0096.162
    
    [GRAPHIC] [TIFF OMITTED] T0096.163
    
    [GRAPHIC] [TIFF OMITTED] T0096.164
    
    [GRAPHIC] [TIFF OMITTED] T0096.165
    
    [GRAPHIC] [TIFF OMITTED] T0096.166
    
    [GRAPHIC] [TIFF OMITTED] T0096.167
    
    [GRAPHIC] [TIFF OMITTED] T0096.168
    
    [GRAPHIC] [TIFF OMITTED] T0096.169
    
    [GRAPHIC] [TIFF OMITTED] T0096.170
    
    [GRAPHIC] [TIFF OMITTED] T0096.171
    
    [GRAPHIC] [TIFF OMITTED] T0096.172
    
    [GRAPHIC] [TIFF OMITTED] T0096.173
    
    [GRAPHIC] [TIFF OMITTED] T0096.174
    
    [GRAPHIC] [TIFF OMITTED] T0096.175
    
    [GRAPHIC] [TIFF OMITTED] T0096.176
    
    [GRAPHIC] [TIFF OMITTED] T0096.177
    
    [GRAPHIC] [TIFF OMITTED] T0096.178
    
    [GRAPHIC] [TIFF OMITTED] T0096.179
    
    [GRAPHIC] [TIFF OMITTED] T0096.180
    
    [GRAPHIC] [TIFF OMITTED] T0096.181
    
    Mr. Kucinich. Thank you very much, Dr. Herberman.
    I want to note that Congressman Burton from Indiana is with 
us. In a previous Congress, he was chairman of the full 
committee. So I appreciate Mr. Burton's presence here.
    Dr. Hoover, you may proceed.
    Then after Dr. Hoover, we are going to go questions of the 
witnesses. Thank you very much.

               STATEMENT OF DR. ROBERT N. HOOVER

    Dr. Hoover. I am Bob Hoover. I am the Director of the 
Epidemiology and Biostatistics Program at the National Cancer 
Institute, and I will be talking briefly about the scientific 
evidence on the topic of cell phones and the risk of brain 
cancer. As an epidemiologist, I will be focusing today on 
studies of risk in human populations.
    It is also important to note that on the biologic side, 
radiofrequency radiation from cell phones is billions of times 
lower than the energy of x-ray photons. As such, its effect on 
the body, at least at this time, appears to be insufficient to 
produce genetic damage typically associated with developing 
cancer.
    Alternative mechanisms have been suggested, but to date 
these offer no alternative mechanism of how this exposure might 
result in cancer vetted adequately.
    From the epidemiologic side, descriptive data from the 
large network of population-based tumor registries funded by 
the National Cancer Institute reveal that there has been no 
increase in the incidents of brain or other nervous system 
cancers from 1987 through 2005, the time period when cell phone 
use increased by about 10-fold.
    From the analytic side, the earliest analytic epidemiologic 
studies including the one conducted by the National Cancer 
Institute, self-reported frequency and patterns of cell phone 
use were compared between patients diagnosed with brain or 
nervous system tumors known as cases and patients or controls 
with other diseases, an investigation known as a case-control 
study.
    These studies found no convincing evidence of association 
between cell phone use and glioma, a malignant tumor of the 
brain or from a meningioma or acoustic neuroma, two largely 
benign tumors of the nervous system.
    These early studies pointed out that future investigations 
would be needed to evaluate potential effects of long-term use 
as well as changing cell phone technology. As a result, a new 
generation of cell phone studies is emerging.
    However, brain cancer is a very difficult disease to study 
well, epidemiologically. Much of the disease is rapidly fatal, 
and the tumor in its treatment can impair cognitive function. 
Cases may cooperate at different rates than controls, and 
answers to questions may be altered in someone who knows they 
have a specific condition.
    Given all of this, it is not surprising that there is a 
fair amount of inconsistency within and between many of these 
studies, both in quality and in findings. Because of this, I 
will focus only on the larger and better designed of these 
studies.
    Perhaps the most notable of these is a large collaborative 
project that includes individual studies from 13 countries, 
collectively known as INTERPHONE. Analyses of data from 
individual centers and those pooled from some but not all of 
the individual countries have been published.
    These individual studies have found no evidence of an 
overall increase in the risk of any type of brain tumors 
associated with the first 10 years of cell phone use.
    In addition, no increased risk has been found in relation 
to several measures of exposure including time since first use, 
lifelong, lifetime years of use, the number of calls, the hours 
of use and the use of analog versus digital phones.
    A somewhat increased risk has been found in some studies 
for tumors diagnosed on the same side of the head that the cell 
phone was used for those with more than 10 years of cell phone 
use, but these are based on small numbers, generally less than 
5 percent of the cases under study, and are consistently seen 
across all the studies.
    Many of us are hopeful that the combined INTERPHONE 
analysis, including all the centers in the original study, 
which is now underway, will provide a much larger number of 
long-term users which will allow an evaluation of different 
exposure metrics and latency, a formal assessment of the 
consistency in study-specific results and more comprehensive 
and statistically stable estimates. This could bring some 
clarity to the current state of the science.
    In another noteworthy study, Danish investigators followed 
up cell phone subscribers over time and found no increased risk 
of brain tumors among the subscribers. This type of study, 
called a prospective study, has the advantage of not having to 
rely on people's ability to remember their past cell phone use 
which could be inaccurate or biased.
    We do know that cell phone use is increasing rapidly among 
children and adolescents. They are a potentially sensitive 
group because of their small head size and could result in 
higher radiofrequency exposure, and the young brain may be more 
sensitive.
    To date, there are no published studies in the peer-
reviewed literature regarding the risk of cancer and cell phone 
use in children. However, there are ongoing studies in Europe 
that will soon provide information on the risk from cell phone 
use among children.
    In summary then, thus far, brain cancer incidence trends in 
the United States are unrelated to patterns of cell phone use. 
Most analytic studies indicate no overall increased risk of 
brain tumors within the first 10 years.
    There are inconsistent findings of increased risk across 
many different ways of measuring increased dose. There are some 
isolated findings of increased risk in some dose and population 
subgroups, but larger studies and replication and different 
study designs are needed to sort out the roles of chance and 
bias from those findings that are really worth pursuing.
    Potential risks associated with childhood exposure have not 
been assessed. Insight into these last two points may come 
relatively soon from ongoing analyses of the overall INTERPHONE 
Study and from the northern European case-control study of 
childhood cancer.
    I thank you for the opportunity to present and look forward 
to your questions.
    [The prepared statement of Dr. Hoover follows:]

    [GRAPHIC] [TIFF OMITTED] T0096.182
    
    [GRAPHIC] [TIFF OMITTED] T0096.183
    
    [GRAPHIC] [TIFF OMITTED] T0096.184
    
    [GRAPHIC] [TIFF OMITTED] T0096.185
    
    Mr. Kucinich. I thank you, Dr. Hoover.
    I want to thank each of the witnesses. We are going to go 
to questions from Members.
    I would like to begin by asking the scientists who are 
here, I believe every one of you agrees that the science is not 
conclusive on a connection between cell phones and human health 
effects. Nevertheless, some scientists look at inconclusive 
data and see something of concern while others look at that 
same data and conclude there is no connection.
    For the lay person, can you, scientists, please explain how 
is that possible?
    Dr. Carpenter, do you want to start?
    Mr. Carpenter. Well, I wear both hats. I am also a 
laboratory scientist, and the tradition in laboratory science 
is that one keeps doing experiments until you get results that 
show a consistency where there is no greater than a 5 percent 
chance that your result could be due to statistical 
variability.
    As a public health official, I look at this issue quite 
differently because I agree that I don't think that the overall 
evidence for brain cancer from using cell phones reaches quite 
that 95 percent confidence limit.
    But as a public health official, are we at the same place 
we were with smoking and lung cancer 30 years ago?
    In fact, as Dr. Davis in a recent book demonstrated very 
clearly, the Nazis in the thirties had definitive evidence for 
a relationship between smoking and lung cancer. We, in the 
United States, ignored that evidence and did nothing until the 
Surgeon General's report in, what, the late seventies.
    And, I see this from the public health perspective as being 
very, very important, that we urgently need more research. I 
totally agree with Dr. Hoover. I think this INTERPHONE Study 
has some potential, but there are some problems with that as 
well.
    We have almost no U.S.-funded research in this area.
    Mr. Kucinich. Dr. Herberman, would you care to respond?
    Dr. Herberman. Yes. Thank you.
    I think there are several issues that I would like to bring 
up. One is although there have been a number of different 
studies, I point out that the large majority of the negative 
studies are actually not independent of each other but have 
used the same methods.
    Mr. Kucinich. What does that mean?
    Dr. Herberman. Well, particularly, about six different 
countries that participated in the INTERPHONE Study used 
exactly the same design. So if there are flaws in the design, 
these would be replicated across each of those studies.
    One of those which is often cited, the Danish Cancer 
Society study and Dr. Hoover referred to that, used a very 
large number of people, but it excluded all business users from 
the study. That study actually started with about 700,000 cell 
phone users but excluded the 200,000 who were the business 
users and, most likely during that era, the most heavy users of 
cell phones.
    They also defined a user as someone who made a simple one 
call a week. That is not the type of exposure that I am 
concerned about.
    They also didn't evaluate in most of these studies the use 
of cordless phones which, as I said in my testimony, also 
involves radiofrequency signals.
    Last, let me try to address some of the comments that Dr. 
Hoover just made. As he nicely summarized, most of the studies 
that look at the data mainly looked at exposures of less than 
10 years. But, as I said in my testimony, I believe it is most 
likely that the latent period before cancer would develop from 
such exposure would be probably more than 10 years.
    I also note that Dr. Hoover failed to discuss the studies 
by Dr. Leonard Hardell, and I noticed in the cancer bulletin 
that the NCI just published within the last few days, that 
among their references the Hardell studies were omitted.
    I think that this is a major lapse of turning a blind eye 
to the studies that concern me the most.
    Mr. Kucinich. I want to thank Dr. Herberman. We are going 
to have a chance to get back to you and to Dr. Hoover, excuse 
me, when I ask the next round of questions to the witnesses. 
But before my time is up, I want to ask Mrs. Marks if you have 
any response to what you have just heard, and I would just ask 
you to keep it brief.
    Mrs. Marks. Well, my response would be that I am not a 
scientist. I am a human being, a mother, a wife.
    I do know from my research and from talking with doctors 
and scientists worldwide that there are major flaws even in 
this INTERPHONE Study. I have in front of me something right 
here that says: The INTERPHONE Studies always find a 
statistical significant elevated risk when a cell phone has 
been used for 10 or more years on the same side of the head 
where the tumor was found.
    I am sorry, but I am not understanding the lack of 
correlation here.
    Mr. Kucinich. OK. You know what, in deference to Dr. 
Hoover, who may have a different opinion, I will give you a 
brief response to what was said here.
    Dr. Hoover. You want me to respond to that, rather than the 
question?
    Mr. Kucinich. You can respond to your colleagues here.
    Dr. Hoover. OK. Yes. Certainly, Dr. Hardell's studies, Dr. 
Hardell has made important contributions, and he was one of the 
first in the field.
    As I mentioned in my statement, however, that as more 
studies have come out and more diverse findings have emerged, 
there is a capability of segregating studies by quality.
    I think to Dr. Hardell's credit, he attempted to do 
something very fast and get an answer very quickly. He used a 
method of pursuing prevalent cases in his early studies that 
effectively ended up eliminating everybody who died quickly or 
had a significant impairment. And then, I think his first study 
had about less than 30 percent of the total number of cases.
    So there have been, over time, studies to address those 
kinds of issues and also have more long-term users. So I 
certainly focused mainly on those.
    We could have a discussion all day.
    Mr. Kucinich. We are definitely going to go to more 
questions.
    Dr. Hoover. Right, so I think that.
    The issue of the metric and the dose is that I think 
tobacco was mentioned a couple of times. With tobacco and with 
ionizing radiation, for example, there are associations with 
virtually any dose measure you use, with dose rate, how many 
cigarettes per day, with total duration that you smoked, with 
total pack years, with age that you started, with time since 
you stopped. Those are all.
    With those kinds of data, it makes it really easy to think 
there is really something going on thus far.
    Mr. Kucinich. I want to thank you, gentlemen. 
Unfortunately, my time to ask questions has expired a couple 
minutes ago.
    We are going to go to Mr. Burton, and then after Ms. Watson 
we are going to go to another round of questioning. You will 
have more of an opportunity to expand on that.
    The Chair recognizes Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman.
    Three billion users worldwide, you are not going to put 
this genie back in the bottle. It is a problem that is not 
going to go away, if it is a problem.
    What I would like to know is, first of all, is there any 
scientific research going on right now that would allow cell 
phones but not used in the proximity that they are now?
    I think one of you said that this little piece that I put 
on my ear, that it would be much safer. Doesn't it have radio 
waves connected to it at all?
    Mr. Kucinich. Any of the witnesses can respond.
    Mr. Burton. An ear receptacle like this, does it have radio 
waves?
    Mr. Knapp. Yes, it does.
    Mr. Burton. So the risk is still there?
    Mr. Knapp. If I could just add, it is about one-twentieth 
of the power from a normal cell phone.
    Mr. Burton. Well, then I am going to be using that a lot 
more.
    The other thing is you mentioned it could cause brain 
tumors, ear tumors. I presume the jaw and anything that is in 
close proximity would be at risk for some kind of cancer.
    What about if you carry it in your pocket? You know men and 
women carry these things around in their pockets. They don't 
have them sticking out in the air some place. What about other 
forms of cancer that might be caused?
    I know you are speculating. I would just like to know what 
you think about that.
    Mr. Carpenter. If I could answer that, the cancer that we 
see with power line frequencies that has been seen with 
radiofrequency fields in Korea from AM radio transmitters is 
leukemia.
    There is one report of an increase in prostate cancer in 
men that wear their cell phone in their belt.
    My suspicion--I think it needs much more study--is that 
leukemia is the most vulnerable cancer, that beyond that, if 
you have a localized exposure as you do with use of the cell 
phone at the ear, you get cancer of the organs around there. If 
you wear it in your belt, you are radiating your pelvis.
    So, again, we need more research, but I think this is more 
likely to be a general proximity.
    Mr. Burton. Assuming that your thesis is correct, what can 
we do about this?
    I mean people are going to want to communicate because they 
are used to it now, and they like carrying it around. They like 
to be able to get a hold of their husband or their wife or 
their kids in a moment's notice and know where they are and 
talk to them about issues that are important to them. So I 
don't think this is going to change.
    So what can be done to make these things safer if that is 
the problem?
    Mr. Carpenter. Well, I agree. I don't think we are going to 
go back to the pre-wireless age. I wouldn't even advocate that, 
and I think it really depends on the combination of industry 
finding ways to manufacture products that don't have as much 
radiation plus government finding ways of lowering the exposure 
limits that are considered acceptable.
    Mr. Burton. To your knowledge, any of your knowledge, are 
any companies doing research on home phones--everybody has a 
phone they are carrying around in their home as well--on home 
phones as far as radiation is concerned and the cell phones?
    Are any companies, to your knowledge, working on that or 
doing research to find out if they can cut down the amount of 
radio waves that are emanating from these things?
    Anybody? Does anybody know? If you don't know, just tell 
me.
    Mr. Knapp. I believe that some of the industry companies, 
in particular, Motorola, has done research along the way. 
Whether it is focused on reducing the power of that, I don't 
know.
    Mr. Burton. OK. Kids are sitting in front--this is a 
different subject but I think it is relevant to talk about it. 
It is related.
    Kids sit in front of computers all the time. I mean they 
are constantly there, either studying or playing games. I mean 
they are watching that. Many of them, most kids I think today, 
the younger ones, are using those more than they are watching 
television even.
    This exposure from a computer, does that emit radio waves 
and is that a threat as well?
    Mr. Carpenter. Well, if I can answer that, if it is a 
wireless computer, yes. If it is wired, there is a little bit 
of radiofrequency radiation in any computer screen, any 
television screen, but there is not significant exposure.
    So wired devices, a wired telephone is not going to release 
any radiofrequency radiation. Most computers are not going to 
unless they are in the wireless mode.
    Mr. Burton. I am about out of time. The phones that we have 
at home, everybody has a mobile phone they are carrying around 
their house. My wife loses it all the time, and I hope she is 
watching. Do they emit as much radiation as the cell phones?
    Mr. Knapp. Generally not, and the reason for that is your 
home phone is only trying to go maybe 100 feet or so as opposed 
to a cell phone that has to get back to a tower that might be a 
mile and a half away. So it is generally much less.
    Mr. Burton. I think I have run out of time, but you are 
telling me that this little device, if we use it and if we keep 
the cell phone away from vital organs in the body, we reduce 
our risk, according to you, fairly dramatically. OK.
    Mrs. Marks. Can I make one comment, please?
    Mr. Burton. Sure, sure.
    Mrs. Marks. What we have all purchased since this happened 
with my husband are ear buds with a little microphone. They are 
$10 and plug into your cell phone.
    Remarkably, my husband stopped using his cell phone to his 
ear upon the diagnosis, and at his first MRI his tumor had not 
grown as aggressively as the doctors had suspected.
    So one thing we might want to consider--I don't know if it 
is coincidence or not--is buy some ear buds and plug them into 
your phone. I think that could help tremendously. I hope the 
scientists agree with me.
    Mr. Burton. Can I ask one more?
    I carry these things in my pocket all the time. I don't 
want to get prostate cancer or anything else. I don't think 
anybody else does.
    Is there any kind of a device that is around, like a lead 
device or something that you could put around these things that 
would keep them from emitting--I mean people are going to ask 
these questions--that would keep them from emitting in the 
kinds of ways that might endanger people?
    I see Dr. Hoover is squirming all over the place with this 
thing, but I would just like to know from your perspective.
    Mr. Carpenter. I was given a little woven net at this 
meeting in London 2 weeks ago that really does prevent the 
radiation from getting out. Now I don't know how practical that 
is in terms of if you carry it in your pocket, you want to be 
able to receive a call if it comes in, but there are some 
devices.
    Mr. Burton. What is that substance? What is that thing made 
out of?
    Mr. Carpenter. I am not sure what it is made of, but it is 
just a little woven pocket that you slip----
    Mr. Burton. And it cuts down the amount of radiation.
    Mr. Carpenter. That is correct.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you very much.
    The Chair recognizes the Congresswoman from California, 
Congresswoman Watson.
    Ms. Watson. Thank you so much, Mr. Chairman, for holding 
this hearing.
    As I mentioned up front, I have experienced that not only 
in my own family, with several of my friends. I think many of 
you know of the late Johnnie Cochran, and there is a lot of 
concern about what brought on his tumors and caused his death.
    But when I came in, Mrs. Marks, you were speaking. What 
kind of work did your husband do?
    Mrs. Marks. My husband went to medical school, and then he 
switched careers. He is a real estate developer and broker.
    Ms. Watson. I see.
    Mrs. Marks. And used to be involved in the financial end of 
real estate.
    Ms. Watson. So he had that phone at his ear 24-7, I would 
imagine.
    Mrs. Marks. He did.
    Ms. Watson. Yes.
    Mrs. Marks. Yes. It was a vital part of his work.
    Ms. Watson. You know I have been doing a visual study 
myself because of my 39-year-old niece. She had a tumor, 
cancerous tumor on her left ear first. It was removed, and 3 
years later it appeared again on the right side.
    I was told by the doctor that the cancer stayed under a 
flap in her cranium. So I just want to say if the cancer is in 
the body, the cells can remain there, and he said that it just 
went elsewhere and appeared again.
    Mr. Knapp, you mentioned in your testimony that as the FCC 
is the primary regulator of cell phones, the Agency gets its 
information about evolving science around cell phones and 
tumors or other health effects from other agencies, primarily 
from the FDA. Do you know if there is any staff person who has 
a background in health or biological sciences, any expertise, 
at the FCC?
    Mr. Knapp. At the FCC, not in the area of analyzing 
biological data or medical science.
    Our focus is on the implementations. Once the standard is 
in place, we have the engineers who can make sure that the 
products comply with the standards.
    Ms. Watson. Well, how often does the FDA discuss 
information with the FCC on science of health effects and your 
research and how does this exchange occur? Do they communicate 
and coordinate?
    Mr. Knapp. It happens at many levels. Staff from FDA and 
FCC both participate in some of the standards-setting 
organizations that deal in this field.
    There is an interagency working group that includes FDA, 
EPA, OSHA, all the agencies involved in this that communicates 
about four times a year.
    And then we also have informal staff to staff meetings to 
discuss broad topics of interest between our agencies--radio 
devices, including any changes on RF exposure. That meets two 
to three times a year.
    Ms. Watson. So they do share with you, information.
    Mr. Knapp. Absolutely.
    Ms. Watson. If so, does the FCC issue new rules pertaining 
to the cell phones and how would the Agency be able to 
deliberate upon public comments pertaining to health effects?
    I mean I am sure they get lots of calls. What happens as a 
result of obtaining this information?
    Mr. Knapp. Typically, what happens, we will participate in 
these meetings and ask for advice from those health agencies as 
to is there something we should be doing, should we have a 
standard that is adopted, should it be changed. And thus far, 
we haven't gotten guidance to change that from the other 
agencies.
    As far as were we to be in the position of trying to 
evaluate that, we really don't have the expertise to tell which 
level causes which effects and which studies are valid on the 
medical side.
    Ms. Watson. I think I heard somewhere on the panel that 
some countries are issuing warnings. Does anyone on the panel 
know what countries and what kind of warnings they are issuing?
    Dr. Herberman. Yes, I would be happy to speak to that.
    Before I issued my advisory back in late July, several 
countries in Europe had put out such precautionary advisories. 
They were specifically Germany, France and Sweden and also the 
Province of Ontario.
    And after my advisory was issued, the Government of Israel 
also came out with parallel recommendations.
    I would also, if I could just take another minute, I would 
like to address one point about what you are raising about the 
FCC regulations. Mr. Knapp has referred specifically to the 
SARs which are helpful indications of the amount of absorption 
that occurs from the radiofrequency into the brain.
    I point out that these are based on adults and, as I said 
in my testimony, there is quite striking evidence that if you 
do the same type of absorption studies in children, the amount 
of absorption into the brain is considerably greater.
    I actually brought a visual model to demonstrate what 
Professor Ghandi, who did studies along these lines, has 
actually shown, and his studies have been confirmed by French 
Telecom.
    Ms. Watson. Mr. Chairman, can we have a little more time to 
see these models?
    Mr. Kucinich. We are going to go to another.
    Dr. Herberman. This would take one, just a couple of 
seconds.
    Mr. Kucinich. Sure, of course. Yes, we are going to go to 
another level of questioning, but please proceed.
    Dr. Herberman. If I could just show, this is the model of 
the brain that shows the amount of absorption into the brain of 
an adult. It only goes about 2 inches into the brain.
    This is a model of the same part of the brain near the ear 
of a 5-year-old child. This goes pretty far into the brain, and 
I think that is something that the FCC should consider to talk 
about the amount of absorption in the brains of children as 
opposed to adults.
    Mr. Kucinich. Could staff bring that model up here for a 
minute?
    Mr. Burton. Can we get pictures of that. Is there any way?
    Ms. Watson. I saw some pictures.
    Mr. Kucinich. Would staff bring the model up here? I just 
want to take a look at it.
    The gentlelady's time has expired on this round. We are 
going to come back. We are going to take another round here.
    Mr. Burton. Can I make an inquiry? Let me just make an 
inquiry. I don't know whether it is possible, but is there any 
way with our copying devices to make copies of that so we can 
take those with us?
    Mr. Kucinich. Dr. Herberman.
    Dr. Herberman. Actually, within my written testimony, we 
have a photograph showing the same thing.
    Mr. Kucinich. OK. Just for the record here, this model, Dr. 
Herberman, is an adult brain model. Is that what you are 
saying?
    Dr. Herberman. Correct.
    Mr. Kucinich. On this model, where is the cell phone?
    Dr. Herberman. The thing sticking out on the side is 
supposed, the cardboard thing.
    Mr. Kucinich. The cell phone is right here.
    Dr. Herberman. Right there.
    Mr. Kucinich. OK. The cell phone is here. We are trying to 
keep this close to the model.
    The cell phone is here, and you are saying that the 
directed energy from that cell phone goes in like this and then 
expands out into the tissue of the brain.
    Dr. Herberman. Right. Yes, and this shows.
    Mr. Kucinich. So I am just turning it in another view. That 
is what an adult brain. What is your basis for that?
    Are there studies that prove this? Is that what you are 
saying?
    Dr. Herberman. This was done with models in which 
radiofrequency signals that are in the same range as the 
commonly used cell phone were used for this.
    Mr. Kucinich. Now this would be a model of a child's brain 
at what age?
    Dr. Herberman. Five years old.
    Mr. Kucinich. A 5-year-old child.
    Do you have research that shows, public health research, 
Dr. Carpenter, that 5-year-old children will use a cell phone? 
Is that possible?
    Mr. Carpenter. I have had inquiries from parents of 2-year-
old children who have given their child the on cell phone to 
play with. I don't think most 5-year-olds are making phone 
calls, but when kids get in elementary school, they begin.
    Mr. Kucinich. So, OK. Now here, we have seen the effect. 
Here is the adult brain effect of use of the cell phone, and 
then we look at the child. Again, so the cell phone is here, is 
that right?
    Dr. Herberman. Correct.
    Mr. Kucinich. The cell phone is here, and it is a very deep 
penetration, you are saying. Now is this kind of penetration of 
the energy of a cell phone, the radiofrequency, the radiation, 
we are saying. Would you say that, from looking at this 
visually, is it your testimony that most of the brain of a 
child would receive some of this energy?
    Dr. Herberman. That is correct. Most of the brain, at least 
on that side of the head, would be absorbing that energy, and 
it is a simple explanation for it. One is that the skull is 
considerably thinner in a child, and it doesn't reach maturity 
until the twenties.
    In addition to that, the nerves in the brain in an adult 
are protected by a myelin sheath. In children, the myelin has 
not fully developed. So there are several reasons for the 
increased absorption in a child.
    Mr. Kucinich. I want to talk a little bit more about 
children here. You are saying that children are more 
vulnerable, just no question about it. I mean you presented 
models here which demonstrate that. You say there is research 
that backed that up.
    This is a model of a 5-year-old. Now are children 10 years 
old vulnerable?
    Dr. Herberman. This was actually done as part of the same 
modeling experiment and, as you might guess, the model of the 
brain of a 10-year-old is somewhere in between that of a 5-
year-old and an adult.
    Mr. Kucinich. Children, 15 years old, we are talking 
teenagers, young teenagers, do they have a vulnerability? Is it 
your testimony they have a vulnerability?
    Dr. Herberman. I believe they still are more vulnerable 
than adults because of the myelin.
    Mr. Kucinich. You believe or you know, Doctor? Doctor, you 
believe or you know?
    Dr. Herberman. This has not been directly studied, but I 
think from other biologic information I know that there is not 
as much myelin protection to a teenager as there is for an 
adult.
    Mr. Kucinich. One of the things that occurs to me, and my 
colleagues I think would probably support this, is it is 
customary in our society to look at various products or 
substances and say that children should not be permitted to 
have access to them or to use them.
    For example, States have passed laws that restrict children 
from being able to purchase cigarettes. States have laws that 
restrict children from being able to purchase alcohol. We even 
have national standards that restrict children's access to 
being able to watch certain types of movies.
    Should there be, and I would like to have a response from 
the doctors who are here, is it your judgment that as a 
precautionary measure, there should be national standards of 
either warning or precaution relating to the use of cell phones 
for children of any age?
    Dr. Carpenter.
    Mr. Carpenter. I would certainly support warnings in 
precautionary levels. I wouldn't say that the evidence is so 
overwhelming that absolutely prohibiting them.
    I do have Dr. Hardell's slide that he presented 2 weeks 
ago, showing that the risk for people under the age of 20 when 
they start to use their cell phone is increased by 5.2 fold 
whereas for the overall population, including that group, there 
is only a 1.4 percent increase in risk.
    I think the evidence is certainly strong enough for 
warnings that children should not use cell phones.
    Mr. Kucinich. So you recommend that we would take strong 
preventive action now based on evidence in hand?
    Mr. Carpenter. Absolutely, because the failure to do that 
is going to lead us to an epidemic of brain cancer in the 
future.
    Mr. Kucinich. Dr. Herberman, would you respond?
    Dr. Herberman. Yes, at a couple of levels. One is I think 
the statements from the wireless phone industry, when they sell 
cell phones, should include the data about the specific 
absorption rates for children as well as adults so that people 
will be better informed about this issue.
    And, second, that is why, as one of the precautions that I 
have advised and several other countries have advised, is to 
warn that children, particularly young children, should limit 
their cell phone use.
    Mr. Kucinich. Dr. Hoover, do you have a response?
    Dr. Hoover. I think it does depend on whether there is a 
risk or not.
    Mr. Kucinich. What depends on if there is a risk?
    Dr. Hoover. Pardon me?
    Mr. Kucinich. What depends if there is a risk?
    Dr. Hoover. Whether you would make a recommendation or not. 
I have not had the opportunity to see Dr. Hardell's study, but 
presumably it will be in the peer review literature soon, and I 
can take a look at it.
    And there is, I think, a very good study that is being 
concluded. Its field phase is December, and probably we will 
have data in early 2009 or mid-2009 which should go a long way 
toward telling us if there is a risk among children.
    Mr. Kucinich. Thank you, Dr. Hoover.
    The Chair recognizes, once again, Mr. Burton of Indiana.
    Mr. Burton. You know when I look at these models, these 
brains, how did they come up with this? How did you decide how 
far the radiation was going?
    I mean you obviously didn't cut somebody's brain open. How 
can you tell that the danger is this severe with a child and 
how severe it is with an adult?
    Dr. Herberman. Well, this was not actually done with 
brains. This, as described in the publication by Professor 
Ghandi and the reference for that is in the appendix to my 
written testimony, was making a model of what is known about 
the thickness of the skull and other characteristics of the 
brain of a child compared to an adult and then using 
radiofrequency signals that mimic the type of radiation that 
one gets to the ear by holding a cell phone to the ear. So it 
is modeling data rather than actual human or brain data.
    But it has not only been done by Professor Ghandi. As I 
said, French Telecom came out with a study recently that 
confirmed Professor Ghandi's results. So I believe it is quite 
credible.
    Mr. Burton. I am not disputing that at all but when you 
start talking about putting warning labels on products. I think 
you are probably correct, but I am playing devil's advocate 
here.
    Shouldn't you do some tests on possibly animals by putting 
some kind of a device similar to a cellular phone near their 
ear and watch the result of that?
    I mean I still don't understand how you can be really 
accurate from just a model without actually seeing the effect 
on a living organism.
    Dr. Herberman. I can't specifically respond to this, but 
maybe Dr. Carpenter can.
    Mr. Carpenter. Well, in this, I have this publication here. 
What they did was construct model brains of the composition 
that you would have of these different ages and then put probes 
in to measure the penetration of the radiofrequency fields.
    Now, unfortunately, those probes, they are not small. So 
actually putting them into, say, a monkey brain would be 
technically complicated, but I basically do agree with you that 
it would be much better to have real measurements in a living 
brain.
    Mr. Burton. Is there anything in the human skull or brain 
that is substantially different than the test model? The reason 
I am asking that is because the test model may show these 
things, and is it conclusive that the human brain will have the 
same reaction?
    Mr. Carpenter. There certainly is always the possibility 
that your model is inaccurate. I acknowledge that.
    This was done to the best of the understanding of the 
electrical characteristics of the skull and the brain tissue by 
Dr. Ghandi. He is a member of the IEEE. So he is an expert in 
the physical properties of these fields.
    Mr. Burton. So there is no doubt that the radio waves are 
penetrating. Whether or not this is entirely accurate may be 
questionable, but there is no question that the radio waves are 
going into the brain and could cause tumors.
    Mr. Carpenter. That is precisely how I see that result.
    Mr. Burton. One more thing, I was asking about us carrying 
these phones around, and I carry two phones and a computer. It 
scares the dickens out of me.
    But when you carry those in your pocket, what evidence is 
there that the radio waves will penetrate far enough to get to 
your vital organs? They are not on the surface.
    Dr. Herberman. If I could address that, there is not a lot 
of data about this, but I have been struck by two reports that 
I think are relevant. One was a study from the Cleveland Clinic 
that reported that men who carried cell phones around in their 
pocket had lower sperm counts, and another report indicated 
that by taking bone marrow from the hip on the side where the 
cell phone is kept in the pocket had lower bone marrow counts 
for generating blood-forming cells.
    So I think this is suggestive evidence, but more needs to 
be done to be certain about that.
    Mr. Burton. Thank you, Mr. Chairman.
    Mrs. Marks. Can I make a comment as a parent about the 
children issue?
    Mr. Kucinich. Please proceed.
    Mrs. Marks. There was a report in our local newspaper 
recently on opening day of school that between 80 to 90 percent 
of the children in elementary school came back to school with 
cell phones.
    I have also heard from Lloyd Morgan, who is a scientist and 
was recently in London at the conference that Dr. Carpenter and 
Dr. Hardell were at, that children are sleeping, and teenagers, 
with their cell phones underneath their pillows. I can't 
imagine that would not be a risk, considering what I have heard 
today.
    I also called AT&T for my husband's cell phone records. 
And, while I was on hold AT&T, has a recorded message playing, 
and one of the things that they say is please limit the amount 
of time that your child uses a cell phone. I would like to know 
why they are saying that.
    Mr. Kucinich. I thank the gentlelady for her additional 
comments, and the Chair recognizes Ms. Watson.
    Ms. Watson. You know you have given us such food for 
thought. Just through my observation, I am seeing that we 
suffer under a great deal of risk, given the kinds of 
radiation-contributing devices we have in our homes and around 
our children and that flesh that seems to be absorbent, so 
absorbent when you are young is exposed to it, 24-7, in every 
room in their homes.
    This is a question and whoever might address it, I would 
appreciate it. Can the use of high frequency wireless network 
routers in the home be a potential health hazard as well?
    Mr. Knapp. The FCC also authorizes those kinds of devices. 
The power levels, again, are generally much lower. We do look 
at them to make sure that they are either going to comply with 
a SAR standard or an RF exposure risk.
    Generally, there are two things that reduce any risk from 
those kinds of products: the lower power level and the 
separation. So we don't have those products up against our 
bodies.
    Ms. Watson. I note that in a lot of businesses now they 
have a screen they are putting, separating the human from the 
screen on the computer. Do you know those screens they are 
putting in front of the television screen, any of you?
    Mr. Knapp. I am not sure exactly which screens you mean but 
the old picture tubes.
    Ms. Watson. The picture tubes and then there is a screen 
they are using.
    Mr. Knapp. Yes, but the screens that are used today, the 
LCD screens and the plasmas, generally don't pose a risk that I 
am aware of. They don't use the kind of radiation that the old 
big picture tubes did.
    Ms. Watson. The old ones.
    Mr. Knapp. Yes.
    Ms. Watson. New technology is reducing the risk.
    Mr. Knapp. Yes.
    Ms. Watson. Thank you very much. I yield back.
    Mr. Kucinich. I thank the gentlelady.
    What are the trends in brain cancer rates for young adults 
and children, Dr. Hoover? Dr. Hoover, do you have information 
about that?
    Dr. Hoover. Yes. The rates in children went up a little bit 
in going from the 1970's to the 1980's.
    Mr. Kucinich. From when?
    Dr. Hoover. From the 1970's to the 1980's.
    And then, as for the total rate, have been pretty level 
from the late eighties until currently or until 2005 which is 
our recent data.
    Mr. Kucinich. Dr. Herberman.
    Dr. Herberman. Yes. We have been looking at this issue and 
are, in fact, preparing a publication related to this.
    Mr. Kucinich. Could you bring that mic a little bit closer.
    Dr. Herberman. Yes. We are actually carefully looking at 
the studies from the SEER Registry that the NCI and the CDC 
maintain. And what I have been struck by is an increased rate 
over the last 10 years or so, particularly for individuals in 
the age range between 20 and 29, and this would fit perhaps 
with the Hardell data that Dr. Carpenter was alluding to and 
again is of concern.
    Mr. Kucinich. Is the latency for brain cancer longer than? 
Is there a latency period of the cancer involved here?
    Dr. Herberman. Well, we can't really be certain, but based 
on general experience with tumors of this type and others I am 
estimating that a latent period of 10 years or more is a very 
likely thing. But we need more evidence about that.
    Mr. Kucinich. If brain cancer was associated or is 
associated with cell phones, when would this exposure become 
evident in the human population?
    Dr. Herberman. If it takes indeed more than 10 years as I 
am surmising, then it would probably be another 5 years or more 
in the United States, at least, before we would see the effects 
of the almost ubiquitous use now of cell phones.
    Mr. Kucinich. Dr. Carpenter, would you like to respond?
    Dr. Hoover. I was just saying that I could certainly 
provide.
    Mr. Kucinich. Excuse me, Dr. Hoover.
    Dr. Hoover. Yes.
    Mr. Kucinich. I directed a question to Dr. Carpenter. I 
will come back to you. You will have every opportunity to 
respond, and I would like you to just follow procedure, and 
everything is going to be fine.
    Dr. Carpenter.
    Mr. Carpenter. I am afraid I don't have any specific 
information on rates in children.
    Mr. Kucinich. Thank you.
    Dr. Hoover.
    Dr. Hoover. I was just going to say that I can certainly 
send the rates from the SEER Program to the committee for the 
record when I go back, the age specific rates over time.
    Mr. Kucinich. Thank you very much. Also, when you send 
that, Dr. Hoover, the subcommittee unfortunately did not 
receive a copy of your written testimony and, of course, it is 
customary to provide the committees with written testimony 
before a witness appears. That didn't happen, and I am asking 
on behalf of the subcommittee if you will provide this 
subcommittee with your written testimony within the next 5 
business days, so we may include it in the record of this 
hearing.
    Dr. Hoover. We did send you the NCI fact sheet which was 
generated by myself and others which would basically the 
substance of such a written record.
    Mr. Kucinich. Maybe it wasn't explained to you but a 
narrative explaining that is also helpful. So if you could 
submit to the subcommittee, written testimony, we would be very 
grateful.
    Dr. Hoover. OK, good. We did clear it with the committee, 
the subcommittee because of the kind. I know we were a 
substitute for somebody else.
    Mr. Kucinich. I am grateful that you are here. Thank you, 
Dr. Hoover.
    I would like to ask a question that may seem technical, but 
it has very serious implications. The FCC sets an absorption 
level called the specific absorption level of 1.6 watts per 
kilogram. That is the exposure limit. Is that correct, Mr. 
Knapp? Just yes or no.
    Mr. Knapp. Yes.
    Mr. Kucinich. OK. That number was calculated, assuming that 
the only way radiofrequency emissions could inflict harm would 
be to heat the tissue similar to the way that a microwave heats 
food.
    And this question is directed to any of the witnesses. What 
evidence is there that cell phones can cause biological 
responses in ways that do not involve heating of the tissue? 
What health effects or biological responses are potentially 
implicated?
    Which of the witnesses would like to answer that question?
    Dr. Carpenter.
    Mr. Carpenter. There are literally hundreds of experimental 
studies and animal model systems and in isolated cells that 
show biological effects of radiofrequency radiation at levels 
that do not cause tissue heating. Not all of those effects are 
necessarily harmful.
    I think the strongest evidence that there is reason to be 
concerned in humans is the evidence on the association between 
brain tumors and cell phone use because while the energy of the 
cell phones has gone down over time, the evidence is really 
quite strong.
    And, I should say that this is not just Dr. Hardell. There 
are studies from other investigators in Finland, in Sweden, in 
Germany, in France that show this elevation in brain cancer 
risk after more than 10 years of exposure, but I think that 
evidence is what concerns me most because those are exposures 
that fall within the current FCC guidelines.
    Mr. Kucinich. Dr. Herberman, do you wish to respond?
    Dr. Herberman. Well, I have very much enjoyed the 
opportunity to review the publications in the BioInitiative 
Report that Dr. Carpenter played a lead role in, and I have 
been impressed that there are quite a number of studies, both 
at the cellular level but also at animals levels, indicating 
that there is effects and damage.
    And the thing that has struck me the most, and I think this 
is important to have in the record, is there are several 
reports from very experienced, credible scientists of damage to 
the DNA which we know is a central mechanism for developing 
tumors and malignant cancer. This is surprising at one level 
because one wouldn't have expected that from non-ionizing 
radiation which the radio frequencies are.
    Mr. Kucinich. How would that happen? We are laymen here, if 
you could just very briefly describe how it is possible that 
the radio frequencies from a cell phone could conceivably have 
an effect on changing or damaging DNA.
    Dr. Herberman. My favorite hypothesis about this, but it 
needs to be experimentally tested, is that this could be 
generating what we refer to as reactive oxygen species to 
separate the oxygen from the hydrogen in water which then has 
the ability to damage the DNA. And this needs to be 
demonstrated, but I think this is a very plausible explanation.
    Mr. Kucinich. Dr. Hoover, your response?
    Dr. Hoover. Yes, there are certainly biological effects of 
radio emissions, and I think I agree with the others that the 
question is are they things that might be related to cancer 
risk. And that is what hasn't been vetted well yet in the 
laboratory and which would be really useful to understand 
underlying biologic mechanisms.
    I know that very recently there has been these reports of 
ability to actually do genetic damage, and some of them I guess 
are currently under scrutiny as to whether they might be 
withdrawn or not. So I think the area is actually still 
evolving.
    Mr. Kucinich. Thank you, Dr. Hoover.
    Mrs. Marks. Can I answer that as a lay person because one 
scientist did explain it to me?
    Mr. Kucinich. Sure.
    Mrs. Marks. I was explained that cellular radiation is--and 
please correct me if I am wrong--the only technology now that 
we have that combines two different radiation waves. They 
travel in two different paths or two different waves. Am I 
correct in saying that, and it combines the two?
    Mr. Kucinich. Would anyone like to respond?
    Mrs. Marks. And our brains are not equipped to handle that?
    Mr. Kucinich. Would anyone respond to that?
    Mr. Knapp. It just gets a little complicated, very 
technical. There is a electrical and a magnetic component to a 
wave. So, technically, that is true.
    Mr. Kucinich. So radio frequencies and electromagnetic?
    Mr. Knapp. Except that it is the radio portion of the wave 
that propagates through space.
    Mr. Kucinich. Is what she said essentially true?
    Mr. Knapp. That there are two components to it, yes, a 
magnetic. I am sorry that it is getting so technical.
    Mr. Kucinich. Well, no. I mean actually technical relates 
to science relates to health effects. So here we are.
    Mr. Knapp. There is a magnetic component that usually 
propagates a very short distance.
    Mr. Kucinich. Mr. Knapp, one of the concerns about the 
current specific absorption rate is that they assume the person 
who is exposed is a 6-foot tall man. Does that make the 
allowable exposure limit higher or lower?
    Mr. Knapp. The limit is a flat limit. So it doesn't vary. 
It is for the device.
    Mr. Kucinich. Mr. Knapp, we just heard testimony that there 
are varying effects based on the thickness of, let's say, the 
adult's skull versus a child's skull. Isn't that the testimony 
we have heard here? So you have heard that testimony.
    There is established by the FCC a specific absorption rate. 
What do you have to say, now that you have heard this 
testimony?
    Do you think that the allowable exposure limit should be 
higher or lower or, based on what you have heard, is there 
evidence that children are more vulnerable than adults and that 
might cause the FCC to have to take that into account when 
construction your specific absorption rate which is the 
exposure limit that you enforce?
    Mr. Knapp.
    Mr. Knapp. The standard that is in place is based on an 
industry recommended and recommended by other Federal Agencies 
accepted standard. It has a margin built into that standard.
    Mr. Kucinich. When was that standard developed? When was 
the baseline for that standard?
    Mr. Knapp. In 1997. There has also been ongoing work. The 
IEEE has developed a subsequent standard, but it is actually 
more lenient than our current standard.
    Mr. Kucinich. When you say that the industry recommended 
it, did you just testify to that?
    Mr. Knapp. When I said industry, perhaps that was an 
imprecise word because these were an IEEE committee that is 
open to all.
    Mr. Kucinich. Would you explain to people what the IEEE is?
    Mr. Knapp. Yes. It is a professional society that develops 
standards, the Institute of Electrical and Electronic 
Engineers. It follows the American National Standards 
guidelines, so that it has to be open to all who want to 
participate. It includes members of government, users and 
manufacturers and health specialists. So it is developed by a 
broad range of experts.
    Mr. Kucinich. This was established, as you said, 1997.
    Mr. Knapp. Correct.
    Mr. Kucinich. You have heard testimony here in September 
2008, 11 years later, that indicates that with respect to 
children there is an increased likelihood of adverse health 
effects. Having heard that testimony, how would you choose to 
proceed with respect to the exposure limits that the FCC sets 
on a specific absorption rate?
    Mr. Knapp. The FCC doesn't have the expertise to evaluate 
whether the standard is an appropriate protection level for the 
cases that were discussed here.
    Mr. Kucinich. So where do you get the expertise?
    Mr. Knapp. From, I think, the other Federal Agencies that 
are conducting ongoing research.
    Mr. Kucinich. OK. Thank you, Mr. Knapp.
    Congresswoman Watson.
    Ms. Watson. Thank you, Mr. Chairman.
    It is a nexus right into the question that is on my mind. 
Any of you, can you tell us about the research and the studies 
that are currently taking place and when can we expect results 
and are there any being initiated through one of our Federal 
Agencies?
    Who would like to respond?
    Mr. Carpenter. I think I can probably answer that well. 
There are a number of studies. As already been mentioned, this 
INTERPHONE Study, it is a partnership between the World Health 
Organization and the cell phone industry. It is going on in a 
number of countries in Europe, also in Israel and Australia.
    The report was expected about 2 years ago, and there have 
been preliminary reports released from some of the studies. And 
the latest gossip, at least, is that the members of the 
committee that are supposed to write the final report cannot 
agree, and nobody knows when this final report will be out.
    One of the surprising findings is that for short-term use, 
many of these studies are showing a protective effect, in other 
words, fewer cases of brain cancer. That doesn't have any 
biologic sense. So it probably indicates a fault in the design 
of all of those studies.
    Ms. Watson. When you say short-term use, what do you mean?
    Mr. Carpenter. Less than 10 years.
    Ms. Watson. Using a cell phone for less than 10 years.
    Mr. Carpenter. That is correct.
    Now some of those studies are getting information on more 
than 10 years, but apparently what they are finding is that it 
looks like in the short term it protects you from brain cancer. 
And then as time goes on, as you use it longer and longer, it 
gets near. It gets higher, but it never gets to statistical 
significance in all of the studies.
    So that may reflect a real increase in risk with prolonged 
time, but it is still uncertain, and we are waiting for the 
full results to come out which may come out sometime in the 
next year.
    Ms. Watson. Would there be a difference in a person, say, 
that uses a cell phone?
    When you said short-term use, I am thinking of the use of 
the cell phone by an individual, not the years that cell phone 
has been used by an individual but the use of time on your cell 
phone.
    Mr. Carpenter. Well, our understanding is that like any 
other environmental exposure, it is both how much time for how 
many years and also there is a factor of we are not all the 
same genetically.
    Ms. Watson. The length of calls.
    Mr. Carpenter. So there is a matter of variations and 
susceptibility, and these are all issues that have to be 
factored in, and that is why you need a large number of cases 
to really factor out the things that influence the risk of 
cancer.
    Ms. Watson. You mentioned the World Health Organization and 
other countries. Are there any studies being initiated here, 
FCC, FDA, at universities?
    Mr. Carpenter. I am not aware of any studies in the United 
States. The National Institute of Environmental Health Sciences 
did support a program on EMFs, but that ended in the late 
1980's, 1990's, and there has been almost no attention to this 
issue in the United States. And this, in my judgment, is 
urgently needed with the best possible exposure assessment.
    Dr. Herberman. If I could just add a little bit to what Dr. 
Carpenter said.
    Ms. Watson. Please.
    Dr. Herberman. I agree completely with what his last 
remarks were. We urgently need such a study, and that is what I 
was alluding to at the end of my testimony.
    One of the things that my colleagues at the University of 
Pittsburgh Cancer Institute are planning, particularly together 
with epidemiologists at M.D. Anderson Cancer Institute, but it 
would require the cooperation of the wireless industry, would 
be to obtain the billing records of use.
    We know from other types of medical outcome studies that 
billing records are the most accurate, objective indication of 
use of various procedures and, rather than rely on likely 
faulty recollections, the billers get it right all the time.
    They have the records of how much, how long, and that type 
of information that could be linked with other information that 
you have to get a history on--like is there also use of 
cordless phones and how much is that used--would, I think, take 
us a substantial distance toward a better, more definitive 
study than the ones that have been done so far.
    Ms. Watson. Would you yield me just another second to kind 
of summarize what I am thinking?
    Mr. Kucinich. The gentlelady may proceed.
    Ms. Watson. I think back to the years that it took us in 
California to study the effects of tobacco, 14 years, and 
California was the first State to come out with the no smoking 
policy. I remember under Governor Jerry Brown, it was no 
smoking on planes in California air space. It has spread now 
globally--lead, asbestos and so on.
    I am thinking is the industry so powerful that they have 
not wanted to engage in looking at the risk that comes about 
from high technology?
    What I think we ought to do and certainly our chairman is 
very, very experienced in coming out with innovative 
approaches, but I think we ought to, as a committee, recommend 
to the FCC or the FDA or the National Institutes of Health that 
we start looking into these studies.
    I think we need to drive this, Mr. Chairman. Thank you so 
much.
    Mr. Kucinich. Just to respond to my colleague, 
Congresswoman Watson, we will.
    I also want to let you know that staff has informed us that 
most, if not all, cell phones currently come with some kind of 
a warning from the FDA. That may be because of more research 
that might be more recent than the FCC relies on for its 
specific absorption rate.
    So one of the things we will need to do is to get these 
agencies to communicate with each other. That is No. 1.
    But something that has come from this committee, I am going 
to comment on when I conclude these questions.
    I want to just ask you to put yourself in a mother's or 
father's shoes. You are told to protect your children from 
certain TV programs, chemicals in the water and food, chemicals 
in the air. Parents have to protect a child from more things 
than we could even mention here today.
    Now what we are doing in this hearing is empowering people 
with scientific information to further protect themselves. But 
is that realistic?
    Should the onus be on the cell phone user or should the 
onus be on the companies that profit from this technology? 
Should they bear some burden? What should they do?
    I would like to hear a response to that question, starting 
with Dr. Hoover and going down the line to Mrs. Marks, and if 
you could each keep your response brief.
    Dr. Hoover. Well, I think certainly knowledge, particularly 
knowledge disseminated to the public, is good and people can 
actually make personal decisions because obviously personal 
decisions about risk are widely variable. Even in this area, 
there are still people who talk on cell phones when they are in 
cars, and there is overwhelming evidence that is a very bad 
thing to do.
    So I think that there is value to pushing out good 
information of what we know and what we don't know, so people 
can make those kind of risk decisions themselves.
    I think in the area of making public health recommendations 
it is a lot trickier because the standard is usually quite a 
bit higher mainly because people believe that if it comes out 
as a public health recommendation, there is a whole lot of 
science behind it. We undercut ourselves if we don't demand 
that sort of science to make our public health recommendations.
    I know I have been embroiled in Saccharin and bladder 
cancer and coffee drinking and pancreatic cancer, which had a 
fairly large constituency and evidence that someone should do 
something, but the science was not there yet. And as the 
science got there, it became less true.
    So I believe that there are two paths to go down. One is to 
get the information out so that people can make, can see what 
the level of evidence is and isn't and make personal decisions 
and to improve on what is really currently lack of adequate 
scientific evidence to move to a solid public health 
recommendation.
    Mr. Kucinich. Thank you.
    Dr. Herberman.
    Dr. Herberman. I would urge that this committee use its 
powers of persuasion with the cell phone industry to fully 
cooperate in the design of independent studies done by academia 
as I described a minute ago to really get the answer. If the 
answer is that there is no connection between cancer and cell 
phone use, I would be absolutely delighted.
    But I think we have to get the answer, and getting the 
billing records and cooperation of the industry I think is very 
important.
    Mr. Kucinich. Thank you.
    Dr. Carpenter.
    Mr. Carpenter. I think there are three levels that are 
important. Certainly education of the public is important.
    I think that it is really incumbent on the industry to take 
steps to find ways in which we can still use our cell phones 
but without greater risk.
    And then, finally and perhaps in my judgment most 
importantly, I think there is a major responsibility of 
government, and I would point to my colleagues at the FCC. 
Their assumption that there is no adverse effect except tissue 
heating is simply wrong, and it comes from--as Mr. Knapp said--
the IEEE.
    This is a bunch of engineers. They are not people that have 
health background. They may have some health advisors, but it 
isn't the engineering community that should be setting the 
health standards.
    And I am firmly convinced that the ultimate protector of 
the public has to be government. There are a number of other 
government agencies involved, but I think all three things are 
important.
    Mr. Kucinich. Mr. Knapp.
    Mr. Knapp. The standards that we are applying are based on 
what has been recommended not only by the IEEE and supported by 
other Federal Agencies, but that is what we have been advised 
is the appropriate level, and that is where we are applying to 
ensure that the products do comply with those levels as they go 
out the door.
    We absolutely support continuing research into this. In 
fact, the FDA had tasked the National Academies to make 
recommendations for further study, and one of the first areas 
that they identified was continuing research relevant to this. 
And we completely support the further analysis of this issue.
    Mr. Kucinich. Mrs. Marks.
    Mrs. Marks. Well, as a parent, I feel that the 
responsibility lies with our government and the cell phone 
industry.
    I am unaware of the thing that you mentioned about the FDA. 
I didn't feel that this fell entirely under their jurisdiction. 
I am not aware that they are supplying warnings. So perhaps I 
am wrong, but I wasn't aware.
    Mr. Kucinich. I have been told by staff that there is some 
language in some of the instruction manuals for the cell 
phones, but language in an instruction manual which you may not 
really see is a little bit different than a warning.
    Mrs. Marks. Right. Also, I worry terribly about children, 
but I feel that their parents should be the ones regulating 
their use per government and cell phone industry warnings.
    I also worry terribly about children who are going to be 
losing parents to this, such as my children. As much as I love 
children and I want to protect them, I think that we have to 
consider that also.
    And I thank you, and I hope that we can make some changes.
    Mr. Kucinich. Thank you.
    Does my colleague, Congresswoman Watson, have any closing 
remarks here?
    Ms. Watson. Let me just say how much I appreciate the 
testimony here today. I think it opens up our eyes as to what 
our responsibility should be. Government plays a tremendous 
role.
    I am thinking about China and the babies that have died and 
gotten sick because there wasn't the oversight or the 
monitoring and what they put in the formula, and I think about 
Similac in the 1970's that was given to babies in Africa.
    I am just saying where is the public's responsibility and 
government's responsibility to protect the public's health?
    I am just appalled that studies have not been initiated, 
and I think I know why--because industry now and people have 
made millions off of these high technological devices without 
really taking time to look at their long-range effect.
    I think that it is incumbent on us, Mr. Chairman, and I 
know that you share those thoughts as well. You demonstrated 
them in the past. So thank you very much, and I would like to 
thank our witnesses for the time they spent with us today.
    Mr. Kucinich. I thank the gentlelady.
    I want to note for the record, apropos of what Dr. 
Herberman and Dr. Carpenter have mentioned, that in preparing 
her testimony, that Mrs. Marks did submit to this subcommittee 
extensive medical records of her husband, extensive cell phone 
records of her husband.
    The committee will, of course, review those because it may 
be that a kind of evidentiary track will be quite significant 
in being able to continue our work to be able to see if there 
is a case made for stronger action.
    I want to say in conclusion, I certainly thank all the 
witnesses. Each of you has brought something to this hearing 
that has been quite important.
    Mrs. Marks, your family has suffered greatly, and I just 
want you to know on a personal basis that I am very impressed 
with your courage in coming here and telling this story. It 
can't be easy to do that.
    Mrs. Marks. It is not, and I thank you.
    Mr. Kucinich. I just want to note that, that it is much 
appreciated that you would care enough to bring your story to 
this committee and to back it up with facts.
    Each of the witnesses has presented information that is 
going to be very valuable to us. I want you to know that this 
subcommittee will continue to retain jurisdiction over this 
matter.
    We will continue to seek the cooperation of the industry. 
They will be given another opportunity to testify, and they 
will be asked to provide records with respect to these health 
issues. So we are not going to let this matter rest.
    I want to take a note particularly about what information 
has been presented with respect to the possible adverse health 
effects concerning children. That is an area that has, I think, 
some urgent import, and I will be discussing this matter with 
other congressional leaders with respect to that.
    I want to thank each and every one of you for your 
presence.
    I am Dennis Kucinich, Chairman of the Domestic Policy 
Subcommittee of the Oversight and Government Reform Committee.
    This has been a hearing of the subcommittee on the topic of 
``Tumors and Cell Phone Use: What the Science Says.''
    Again, thanks to all of you in attendance.
    This committee stands adjourned.
    [Whereupon, at 1:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
